<html>
<title> - COPS IMPROVEMENTS ACT OF 2007, THE JOHN R. JUSTICE PROSECUTORS AND DEFENDERS INCENTIVE ACT OF 2007, AND THE WITNESS SECURITY AND PROTECTION ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  COPS IMPROVEMENTS ACT OF 2007, THE JOHN R. JUSTICE PROSECUTORS AND 
     DEFENDERS INCENTIVE ACT OF 2007, AND THE WITNESS SECURITY AND 
                         PROTECTION ACT OF 2007 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                   H.R. 1700, H.R. 916, and H.R. 933

                               __________

                             APRIL 24, 2007

                               __________

                           Serial No. 110-72

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

34-926 PDF                     WASHINGTON : 2007 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

































                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. (BOBBY) SCOTT, Virginia    HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

              ROBERT C. (BOBBY) SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MARTIN T. MEEHAN, Massachusetts      DANIEL E. LUNGREN, California
ARTUR DAVIS, Alabama
TAMMY BALDWIN, Wisconsin

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel











































                            C O N T E N T S

                              ----------                              

                             APRIL 24, 2007

                               THE BILLS

                                                                   Page
H.R. 1700, the ``COPS Improvements Act of 2007''.................     2
H.R. 916, the ``John R. Justice Prosecutors and Defenders 
  Incentive Act of 2007''........................................    14
H.R. 933, the ``Witness Security and Protection Act of 2007''....    22

                           OPENING STATEMENTS

The Honorable Robert C. (Bobby) Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................    27
The Honorable Anthony D. Weiner, a Representative in Congress 
  from the State of New York, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    38

                               WITNESSES

Ms. Laurie Robinson, Director, Master of Science Program, 
  Department of Criminology, University of Pennsylvania
  Oral Testimony.................................................    41
  Prepared Statement.............................................    42
The Honorable Douglas H. Palmer, Mayor of Trenton, New Jersey, 
  President of the United States Conference of Mayors
  Oral Testimony.................................................    48
  Prepared Statement.............................................    49
Mr. Edmund H. Mosca, Chief of Police, Old Saybrook Department of 
  Police Services, Old Saybrook, Connecticut
  Oral Testimony.................................................    53
  Prepared Statement.............................................    55
The Honorable Kamala D. Harris, District Attorney, City of San 
  Francisco, California
  Oral Testimony.................................................    75
  Prepared Statement.............................................    76
Mr. Mark Epley, Senior Counsel, Office of the Deputy Attorney 
  General, United States Department of Justice, Washington, DC
  Oral Testimony.................................................    82
  Prepared Statement.............................................    85
Mr. John Monaghan, Consultant, New York City Law Department, New 
  York
  Oral Testimony.................................................    93
  Prepared Statement.............................................    94

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable J. Randy Forbes, a 
  Representative in Congress from the State of Virginia, and 
  Member, Subcommittee on Crime, Terrorism, and Homeland Security    30

                                APPENDIX

Material Submitted for the Hearing Record........................   115

                        OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

GAO Report, GAO-06-104, entitled Report to the Chairman, Committee on 
    the Judiciary, House of Representatives, October 2005, Community 
    Policing Grants, COPS Grants Were a Modest Contributor to Declines 
    in Crime in the 1990s. This report is available at the Subcommittee 
    and can also be accessed at:

    http://www.gao.gov/news.items/d06104.pdf


  COPS IMPROVEMENTS ACT OF 2007, THE JOHN R. JUSTICE PROSECUTORS AND 
     DEFENDERS INCENTIVE ACT OF 2007, AND THE WITNESS SECURITY AND 
                         PROTECTION ACT OF 2007

                              ----------                              


                        TUESDAY, APRIL 24, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Robert 
C. (Bobby) Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Waters, Weiner, Jackson 
Lee, Baldwin, Forbes, Sensenbrenner, and Coble.
    Staff present: Bobby Vassar, Majority Chief Counsel; 
Gregory Barnes, Majority Counsel; Carolyn Lynch, Minority 
Counsel; and Veronica Eligan, Professional Staff Member.
    Mr. Scott. The Subcommittee will now come to order.
    And I am pleased to welcome you to today's hearing before 
the Subcommittee on Crime, Terrorism, and Homeland Security on 
H.R. 1700, the ``COPS Improvements Act of 2007;'' H.R. 916, the 
``John R. Justice Prosecutors and Defenders Incentive Act of 
2007;'' and H.R. 933, the ``Witness Security and Protection Act 
of 2007.''
    [The bills, H.R. 1700, H.R. 916, and H.R. 933 follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Scott. The first of the three bills, H.R. 1700, the 
``COPS Improvement Act of 2007,'' amends the Omnibus Crime 
Control and Safe Streets Act of 1968 to expand the current 
authority of the attorney general to make grants for public 
safety and community policing for the COPS program.
    COPS program was originally created in 1994 as part of the 
Violent Crime Control and Law Enforcement Act. Since its 
inception, the mission of the program has been to advance 
community policing in all jurisdictions across the United 
States.
    The program achieves this objective by awarding grants to 
State, local and tribal law enforcement agencies so they can 
hire and train law enforcement officers to participate in 
community policing, to purchase and deploy new crime-fighting 
technologies and to develop and test new and innovative 
policing strategies.
    Since 1994, the program has awarded more than $11 billion 
to over 13,000 law enforcement agencies across the United 
States, and at the end of fiscal year 2004, the program had 
been credited with funding more than 118,000 community policing 
officers.
    The second of the three bills, the ``John R. Justice 
Prosecutors and Defenders Incentive Act of 2007,'' also seeks 
to amend the Omnibus Crime Control and Safe Streets Act of 
1968, but in the case of this measure, the legislation 
specifically directs the attorney general to assume the 
obligation to repay student loans of any individual who agrees 
to remain employed for at least 3 years as either a State or 
local criminal prosecutor or a State, local or Federal public 
defender in a criminal case.
    The inherent difficulties associated with retaining 
qualified public attorneys are not new, and there are multiple 
reasons why an attorney might choose the private sector over 
the public sector. The most frequency discussed reason centers 
around the need for higher-paying jobs in the private sector to 
pay off lingering student loans.
    The National Association of Law Placement reports that the 
median salary for a 5th-year associate in private practice is 
$122,500. In contrast, the median salary for a 5th-year State 
prosecuting attorney is merely $55,000, while a 5th-year public 
defender makes even less at $54,000, and a 5th-year local 
prosecutor makes about the same.
    With significant pay disparities such as this, it is easy 
to understand how public-sector attorneys are easily lured away 
with the hope of obtaining larger salaries that can be found in 
the private sector, particularly when you have student loans 
involved.
    The final measure we are considering today is H.R. 933, the 
``Witness Security and Protection Act of 2007.'' It seeks to 
amend title 28 of the U.S. Code to establish within the U.S. 
Marshals Service a short-term witness protection program for 
witnesses that are involved in a State or local trial involving 
homicide, a serious violent felony or a serious drug offense.
    To ensure the best possible use of limited Federal 
resources, the legislation also directs the U.S. Marshals 
Service to give priority to those prosecutors' offices that are 
located in a State with an average of at least 100 murders per 
year during the 5-year period immediately preceding an 
application for protection.
    Witness intimidation reduces the likelihood that citizens 
will engage in the criminal justice system which will deprive 
police and prosecutors of critical evidence. Moreover, it can 
have the unwanted effect of reducing public confidence in the 
criminal justice system and can create the perception that the 
criminal justice system cannot adequately protect its citizens.
    I am looking forward to the testimony of our witnesses on 
these latter parts as well as their thoughts on the previous 
issues with regards to prior-mentioned bills.
    With this said, it is my pleasure to recognize the esteemed 
Ranking Member of the Subcommittee, my colleague from Virginia, 
Representative Randy Forbes.
    Mr. Forbes. Thank you, Chairman Scott.
    I thank all of you for being here with us today. We 
appreciate your time and look forward to your expertise on 
these matters.
    I want to thank the Chairman for holding this legislative 
hearing on H.R. 1700, the COPS Improvement Act of 2007; H.R. 
916, the John R. Justice Prosecutors and Defenders Incentive 
Act of 2007; and H.R. 933, the Witness Security and Protection 
Act of 2007.
    These bills attempt to address serious crime problems in 
our country: the rise in violent crime, the need for more State 
and local prosecutors and defenders, and witness security 
programs in State and local courts.
    But I hasten to emphasize the word ``attempt'' to address 
these problems. Unfortunately, in their haste to address these 
problems, those drafting these bills have grabbed on to their 
old tried-and-true solutions: throw money at the problem, put 
out press releases, and in the end, waste taxpayers' money. We 
can and should do better.
    The Cops on the Beat program was created in 1994 to award 
grants to State, local and tribal governments for the hiring 
and rehiring of police officers. Since then, COPS has awarded 
more than $11 billion to over 13,000 law enforcement agencies.
    The COPS Office within the Department of Justice reported 
that by the end of fiscal year 2004, it had funded 118,000 new 
positions. That is what it reported.
    A review of the program by the White House Office of 
Management and Budget, however, found that the COPS program had 
put fewer than 90,000 officers on the street. Likewise, a 
University of Pennsylvania study found that the number probably 
would wind up closer to 82,000, or 30 percent fewer cops than 
DOJ's estimate.
    Despite the billions spent on this program, studies on the 
impact of the COPS program have reached conflicting findings 
and conclusions. A 2005 GAO report found that the COPS program 
has had only a modest impact on reducing violent crime.
    The GAO report concluded that although COPS expenditures 
led to increases in sworn police officers above levels that 
would have been expected, ``Without those expenditures, we 
conclude that COPS grants were not the major cause of the 
decline in crime from 1994 through 2001.''
    A May 2006 Heritage Foundation study reached two important 
conclusions: One, spending on the COPS program did not lead to 
an increase in the overall spending by local law enforcement, 
but merely supplanted State and local funds; and two, the COPS 
program has led only to small reductions in crime, the benefits 
of which do not outweigh the costs of the COPS program.
    In 2005, Congress passed a bipartisan DOJ reauthorization 
that included a variety of changes to the COPS program, 
including authorizing over $1 billion a year through the end of 
fiscal year 2009. Here we are, less than 2 years later, 
considering a bill that would increase the COPS reauthorization 
to $1.5 billion through fiscal year 2013.
    It is business as usual. Rather than seeking to use 
innovative policing programs which have been shown to produce 
results, this bill simply throws more money down the drain and 
ignores the fact that as much as $277 million has been misspent 
and despite multiple reports that the COPS program has little 
to no impact on crime.
    The better approach would be to take time to identify what 
works. Cities like Los Angeles and New York are experiencing a 
drop in violent crime. We need to ask why. What are these 
cities doing to achieve this success? What can we learn from 
them about innovative policing programs?
    H.R. 916, the John R. Justice Prosecutors and Defenders 
Incentive Act of 2007, establishes a loan forgiveness program 
within the Department of Justice for State and local 
prosecutors and for Federal, State and local public defenders. 
Despite the good intentions of the bill's sponsors to encourage 
young attorneys to join the criminal justice system and prevent 
attrition, I have several concerns about the bill.
    First and foremost, I am alarmed at the enormous cost of 
the bill, which would assume up to $60,000 in student loan debt 
for every prosecutor and public defender in the country without 
any limitation whatsoever. Repaying the debt for even just 
50,000 participants would cost $3 billion.
    In addition, H.R. 916 requires the Department of Justice--
and not the Department of Education--to administer the program, 
this despite the fact that the Department of Education is the 
agency charged with awarding Federal student loans and 
currently administers several loan forgiveness programs. I can 
see no reason why the Department of Justice should be required 
to establish a system for repaying student loan debt when one 
already exists in the Department of Education.
    Moreover, the bill requires the Department of Justice to 
undertake this program, regardless of whether any money is 
appropriated by Congress. We all know that simply authorizing 
funds for a program does not guarantee that those funds will 
ultimately be appropriated. Should this bill become law, the 
Department of Justice would be required to divert funds from 
its criminal justice functions to administer this program.
    Finally, the bill makes no provision for whether 
participation in existing State and local loan forgiveness or 
repayment programs would disqualify participation in this 
program or at least offset a recipient's award.
    Finally, H.R. 933, the Witness Security and Protection Act 
of 2007, creates a short-term State witness protection section 
within the U.S. Marshals Service to provide the short-term 
witness security services for State and local witnesses in 
homicide, violent crime and drug cases.
    Now, recently, this same Committee held a field hearing in 
New Orleans to address the increasing crime problem plaguing 
that city. We learned that witness intimidation is a reason why 
criminals go unpunished.
    However, we learned that the major reason was because the 
entire judicial system was just so bad that even before the 
hurricane, only 7 percent of those arrested--7 percent--for 
even violent crimes, ever went to jail, and only 12 percent of 
those arrested for murder ever went to jail; that even when the 
prosecutor caught the murder and the murderer on videotape, he 
did not prosecute; and that judges who let criminals on the 
street saw their courts get a percentage of the release bond.
    The reason witnesses were intimidated, according to 
testimony given to us, is because the judges put criminals back 
on the street before the witnesses could get home from the 
courthouse.
    So what is our answer? Just send them a check.
    This bill is sponsored by Mr. Cummings of Maryland, who has 
championed the issue of witness protection and witness 
intimidation, and I commend him for his dedication on this 
important issue. However, I have several concerns about the 
practical effects of this bill.
    Mr. Chairman, I would like to put the rest of my statement 
in the record. And I hope we can work together to address the 
concerns with all three bills we are reviewing today.
    I look forward to hearing from today's witnesses.
    [The prepared statement of Mr. Forbes follows:]
 Prepared Statement of the Honorable J. Randy Forbes, a Representative 
  in Congress from the State of Virginia, and Member, Subcommittee on 
                Crime, Terrorism, and Homeland Security

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Scott. Thank you. I thank my colleague for his 
statement, and I join you in insisting that programs be cost-
effective, and we need to have more hearings on that. Many of 
the things that we have done are not cost-effective.
    I notice that you did say that the COPS program did reduce 
crime, unlike many of the slogans that we have codified which 
actually increased the crime rate. So I join you in making sure 
that we can have cost-effective crime reduction policies.
    We have a vote coming very shortly, and the sponsor of the 
COPS legislation is with us, and I would recognize him for a 
short statement.
    Mr. Weiner. I thank you, Mr. Chairman. I will speak with my 
usual Brooklyn alacrity. I want to thank you for scheduling 
this hearing and thank your staff for their help with this and 
Mark Dunkelman of my staff, who has become perhaps the foremost 
expert on this program.
    You know, when the COPS program was originally created, 
there was a certain amount of controversy surrounding it. There 
were some that said, ``You know what? Philosophically, putting 
on cops on the beat is not what the Federal Government should 
be doing,'' despite the fact in the mid-1990's we were 
experiencing an explosion of crime.
    The COPS program, though, has now, with some exceptions--
and perhaps some of them are in the room--become seen as the 
classic democrat--with a small D--distribution of smart 
resources. We have had small towns, big cities all get 
additional cops out on the beat because of this program.
    There might be some who argue that it is no longer the job 
of the Federal Government to provide assistance to localities 
in trying to protect themselves, but those people do not 
include former attorney general John Ashcroft, for example, or 
former secretary of homeland security Tom Ridge who said 
famously before this Committee that homeland security starts in 
our hometown, that it is going to be hometown police 
departments that are ultimately going to be the way we stay 
safe not only from crime, but from threats from terrorists as 
well.
    The gentleman on the other side talked about some of the 
criticisms that remain of the program. He said that there is 
disagreement about how many cops were hired. Well, there are 
118,000 additional cops on the street, according to the GAO, 
according to our own stats, according to the COPS Office of the 
Bush administration. There are additional cops on the street 
because of this program.
    Now we have gone through this period where in Congress have 
said repeatedly that we believe the COPS program should be 
continued. In a bipartisan way, we reauthorized the Justice 
Department which included language that said fund the COPS 
program.
    We said that there are some changes that needed to be made, 
for example, to reflect the idea that there are more terrorism 
jobs that localities have, that we might want to do some things 
to incentivize local police departments to hire troops 
returning from the front with these grants and to allow more 
use of technology.
    One of the things that the gentleman points out, there is 
some controversy about exactly how many cops were added. Well, 
one of the things the COPS program has done has said that if 
you can invest in your local police department, you might not 
need more officers, but you might need technology to make it 
possible for them to leave their police car or leave their desk 
and go out and patrol the streets. We count that as an 
additional cop on the street, as I thought most good Government 
people would.
    We are doing in this House, frankly, what has been 
supported in a bipartisan fashion. We have several--I think 
over 25--Republican cosponsors in addition to virtually every 
Democratic Member of this House.
    If my colleagues believe that it is our job to help law 
enforcement do their jobs in localities, the COPS program has 
been a success, and it has not just been a success in big 
cities like New York. It has been a success in tiny counties 
and tiny villages all across this country, and now we are here 
to say let's not let that success end.
    And finally, let me point out one other thing. You know, 
while the Bush administration has continued to provide funding 
for the COPS Office, we have gradually become--over the course 
of years, less and less of the COPS funding is going to 
actually hiring cops.
    In 1995, 81 percent of the money went for cops, and 19 
percent went for non-hiring parts of the program. In 2006, it 
went for zero for hiring--not a single new officer was hired--
all of the funds were used for non-hiring elements of the COPS 
program. Our bill reverses that.
    It is going to be passing in the other body, we are going 
to pass it here, and citizens of the United States are going to 
be safer because of it.
    And I thank you, Congressman Scott and Mr. Chairman, for 
taking the lead on this.
    Mr. Scott. Thank you, and I thank the gentleman for his 
comment.
    As I indicated, we have several votes, and it will be 
probably about half an hour or so before we get back. We will 
be back as soon as we can.
    [Recess.]
    Mr. Scott. The Committee will come to order. And we 
apologize for taking so much time, but when the speaker calls, 
then we have to respond.
    We have a distinguished panel of witnesses here to help us 
consider the important issues of the day.
    Our first witness, Laurie Robinson, currently serves as the 
director of the Master of Science program at the University of 
Pennsylvania's Department of Criminology, a position she has 
held since 2004. Prior to that, from 1993 to 1999, she served 
as the assistant attorney general in the U.S. Department of 
Justice. In that capacity, she headed the Office of Justice 
Programs, the department's research, statistics and State and 
local criminal justice assistance arm, which includes the 
National Institute of Justice, the Bureau of Justice Statistics 
and the Bureau of Justice Assistance.
    Our next witness, the honorable Douglas Palmer, was elected 
in 1990 to serve as Trenton's mayor, the first African-American 
to hold that post. In 2003, he was appointed to serve as 
president of the National Conference of Democratic Mayors, and 
just 3 years later, in 2006, he became president of the 
bipartisan U.S. Conference of Mayors. Through his tenure, Mayor 
Palmer has focused on improving health care, particularly for 
children, the elderly and poor. Mayor Palmer is a graduate of 
Hampton University, where he received a Bachelor of Science 
degree in business management.
    Our third witness is police chief Ed Mosca. He joined the 
Old Saybrook Police Department in 1960, rose through the ranks, 
being promoted from detective to sergeant to lieutenant and 
ultimately appointed chief of police in 1971. Past president of 
the Connecticut Chiefs of Police Association and a past member 
of its board of directors, he attended Springfield College and 
the University of New Haven. He also attended the Connecticut 
Chiefs of Police Academy where he graduated first in his class. 
He also attended the Command Training Institute of Bapson 
College, the FBI National Academy and the FBI-sponsored LEEDS 
course.
    Our next witness, Kamala Harris, is currently the district 
attorney for the City of San Francisco. In December 2003, she 
was elected as the first woman district attorney in San 
Francisco's history and the first African-American woman in 
California's history to hold that office. A successful 
prosecutor in Alameda County and San Francisco, she served in 
the San Francisco district attorney's office as the managing 
attorney for the career criminal unit from 1998 to 2000. She 
then headed the San Francisco city attorney's division on 
families and children. Throughout her tenure, Attorney Harris 
has touted a smart on crime approach, vigorously prosecuting 
criminal offenders while remaining committed to rehabilitation 
and preserving civil liberties. She holds a bachelor's degree 
from Howard University and obtained her doctorate from the 
University of California's Hastings College of the Law.
    Our fifth witness, Mark Epley, currently serves as senior 
counsel to the deputy attorney general of the United States. In 
this role, he provides advice on budget and legislative matters 
and oversees the grant-making components of the Department of 
Justice. In addition to his other duties, he is charged with 
being the lead within the deputy's office for the attorney 
general's Project Safe Childhood Initiative, a nationwide 
effort to protect children from online exploitation and abuse.
    Our final witness, John Monaghan, currently serves as a 
consultant on police policy and procedure. In this capacity, he 
provides assistance on research writing and expert witnesses to 
various organizations, including the New York City law 
department, the Sergeants' Benevolent Association and the 
Lieutenants' Benevolent Association. Prior to assuming his 
current responsibilities as a consultant, he served for more 
than 20 years with the New York City Police Department, rising 
through the ranks of sergeant to captain and ultimately to 
lieutenant. He holds a Bachelor of Science in criminal justice 
from John Jay College and a master's in public administration 
from Harvard University.
    Each of the witnesses' written statements will be made as 
part of the record in its entirety.
    I ask each witness to summarize his or her testimony in 5 
minutes or less, and to help stay within that time, there is a 
timing light at the table. When you have 1 minute left, the 
light will switch from green to yellow, and finally to red when 
5 minutes are up.
    So we will begin with Professor Robinson.

   TESTIMONY OF LAURIE ROBINSON, DIRECTOR, MASTER OF SCIENCE 
 PROGRAM, DEPARTMENT OF CRIMINOLOGY, UNIVERSITY OF PENNSYLVANIA

    Ms. Robinson. After a decade of decline, we know that 
violent crime and homicide is now increasing in many cities 
across the country. The Police Executive Research Forum 
released a report just last month that found dramatic increases 
in violent crime among 56 jurisdictions surveyed, more than a 
12 percent increase in robberies and a 10 percent in homicides.
    And crime is again in the center of public concern, as we 
have seen in mayoral races now ongoing in Dallas and 
Philadelphia. Philly, in fact, has had more homicides so far 
this year than the much larger cities of New York, Los Angeles 
and Chicago.
    As I talk to thoughtful law enforcement and criminal 
justice leaders around the country, they are struggling. They 
are confronting very difficult gun, gang, drug and violence 
problems, but working with fewer officers, reduced budgets and 
added homeland security duties
    Despite the fact that in our system of Government, States 
and localities have the major responsibility, of course, for 
public safety, I know from the 7 years that I spent as 
assistant attorney general in the Justice Department that 
effective Federal leadership in addressing crime is critical.
    And in thinking about the best way that the Federal 
Government can assist, I think it is helpful to recall the 
history of the Federal criminal justice assistance program 
which goes back to the highly acclaimed report of the 1967 
Johnson Crime Commission.
    In my written statement, I discuss the appropriate Federal 
roles that the commission reports laid out, many of which were 
reiterated in the Reagan administration's violent crime report 
in 1981 and which are still timely and pertinent today.
    For purposes of this oral statement, I will make four 
points.
    First, Federal dollars should be used to ensure we learn 
what works, as Mr. Forbes laid out, and to spread that 
knowledge. Federally supported research to understand what is 
effective in controlling and preventing crime, field 
experiments conducted in concert with police and other 
practitioners, are terribly important just as we would conduct 
drug trials in NIH in the field of medicine. The difference is 
that in medicine, there are hundreds of millions of dollars 
being invested, but in crime, only a few million dollars are 
spent.
    And then we need to spread that knowledge very broadly. I 
have urged creation in OJP of something like a what works 
clearinghouse. Nothing like that now exists. I wish I had set 
that up before I left.
    Second issue: Federal leadership can support innovation, 
something local communities often do not have the money to pay 
for on their own. Examples here would be initiatives like the 
COPS Office has launched on school violence or methamphetamine 
or OJP's work over the last decade with drug courts.
    Third issue: One of the most cost-effective ways Federal 
money can be spent, in my experience, is on technical 
assistance and training, and here I would mention the COPS 
Office's Regional Community Policing Institutes. I think they 
are an excellent example.
    Fourth, despite our limited ability to scientifically 
measure the effectiveness of the large block grant programs, 
like Byrne or JAG or the COPS Office program, where spending is 
invested in a limitless number of locally chosen programs, I 
think they have done much good.
    Even those who have opposed using Federal dollars with 
COPS, for example, to pay local police salaries have frequently 
acknowledged that COPS has helped dramatically to spread 
community policing, and it has certainly reinvented the way a 
Federal grant agency relates to its constituents.
    The fact is that State and local criminal justice right now 
is in a twofold crisis: dealing with rising crime on the one 
hand and juggling additional responsibilities in the post-9/11 
world on the other.
    In the spirit of the 40-year criminal justice assistance 
program, in my view, Federal leadership and support is vital to 
help States and localities deal with the challenging problems 
they are now facing of rising crime and homicide, drugs and 
gangs.
    [The prepared statement of Ms. Robinson follows:]
                 Prepared Statement of Laurie Robinson
    Mr. Chairman and Members of the Subcommittee:
    My name is Laurie Robinson. I served from 1993 to 2000 as Assistant 
Attorney General for the Office of Justice Programs (OJP) in the U.S. 
Department of Justice, overseeing an annual budget of more than $4 
billion to work in partnership with states and localities in addressing 
crime. During my last year at OJP, the agency was administering some 
42,000 grants. I currently direct the Criminology Master of Science 
Program at the University of Pennsylvania.
    I appreciate the invitation to appear before you today to talk 
about the recent increase in violent crime nationally--and why it is 
crucial that the federal government provide support to states and 
localities struggling to combat the problem.
      why federal leadership--and support--is important right now 
                          in addressing crime
    While crime is largely a state and local responsibility, federal 
leadership and federal support is necessary--especially at a time, like 
today, when violent crime is on the rise--to ensure citizen confidence 
in public safety and the fair administration of justice. No one local 
jurisdiction, no one state can address these problems alone.
    After a decade in which it was on the decline, violent crime is now 
increasing in many cities across the country: The FBI tells us that 
crime in the U.S. increased in the first half of 2006 by 3.7% (compared 
with the previous year)--including a 1.4% increase in murder and 9.7% 
increase in robbery.\1\ A report released by the Police Executive 
Research Forum (PERF) last month found dramatic increases in violent 
crime among 56 jurisdictions surveyed--increases of 12.27% in robberies 
and 10.21% in homicides.\2\
---------------------------------------------------------------------------
    \1\ Preliminary Semiannual Uniform Crime Reports, Federal Bureau of 
Investigation. See http://www.fbi.gov/ucr/prelim06/table3.htm
    \2\ Chief Concerns: Violent Crime in America: Alarming Trends, 
Police Executive Research Forum, Washington, D.C., March, 2007, at 2.
---------------------------------------------------------------------------
    And after years when crime was not a major national issue, it is 
again squarely in the center of public concern. As voters are going to 
the polls this May in Dallas to elect a new mayor, crime is cited as 
the top issue facing the city in recent polls.\3\ And in Philadelphia, 
where I spend much of my time, the central issue in the upcoming 
mayoral race this spring is violence on the city's streets. We have 
suffered more homicides so far this year than the far larger cities of 
New York, Los Angeles and Chicago.
---------------------------------------------------------------------------
    \3\ ``Poll: Crime tops election issues,'' The Dallas Morning News, 
Mon., March 12, 2007.
---------------------------------------------------------------------------
    As I talk to thoughtful leaders in law enforcement and criminal 
justice around the country, many are struggling. With lessons learned 
from years of federally supported research, they know a great deal 
about how to deal with crime--that comprehensive approaches involving 
prevention, treatment and community engagement are critical, along with 
enforcement and punishment, to ensure public safety. But they are 
confronting problems of gangs, drugs, and violence (some of it 
committed by very young teenagers) that are difficult to address. They 
are stymied by working with fewer officers, reduced budgets, and the 
burden of added homeland security responsibilities. Anti-terrorism 
duties have, in fact, drawn attention and resources away from day-to-
day crime fighting, while none of those longtime problems have gone 
away.
    Indeed, some of the high profile ``glamour'' of the terrorism focus 
frustrates local cops. I asked a former student of mine, who is high up 
in the ranks of the Philadelphia Police Department, whether his 
colleagues had used federal Department of Homeland Security funds to 
conduct training on suicide bombers. He looked at me somewhat 
scornfully and said, ``Laurie, we'll get around to that if we ever have 
a suicide bombing in Philadelphia. Right now, we're just busy trying to 
keep up with the shootings we see out here every day.''
    The fact is--as the National Criminal Justice Association has aptly 
put it--that federal funding for homeland security and for state and 
local criminal justice should not be an ``either/or'' proposition.\4\ 
Safe streets, safe neighborhoods and safe cities are the predicate for 
a secure homeland, in both a conceptual and a practical sense. One 
can't neglect the former and expect the latter to exist. And--at the 
end of the day--we need to recognize that both rely on the same public 
safety infrastructure.
---------------------------------------------------------------------------
    \4\ ``The Role of the Federal Government in Law Enforcement and the 
Administration of Justice,'' March 2005,See http://www.ncja.org/
Content/NavigationMenu/GovernmentAffairs/
FederalGovernmentandJusticeAdministrationWhitePaper/default.htm
---------------------------------------------------------------------------
                         reflecting on history
    It is helpful to look at the history of the federal criminal 
justice assistance program when thinking about the appropriate federal 
role in reducing crime--and what is needed and can be most effective 
today.
    Criminal justice in the United States has historically been, and 
still remains today, largely a state and local enterprise. According to 
the Bureau of Justice Statistics, of all the adults who went through 
the justice system in 2002, 94% were convicted in state court--not the 
federal system. Our justice system is also more decentralized than 
almost any other in the world. With 18,000 separate law enforcement 
agencies in the U.S., something as simple as training police in a new 
counterterrorism procedure becomes very complicated. By contrast, in 
the United Kingdom, an order could simply be issued from the Home 
Office and sent to the mere 45 police agencies throughout Great 
Britain.
    The federal role in addressing crime was first defined in a 
document that is still very timely today--40 years later--``The 
Challenge of Crime in a Free Society,'' the report of President Lyndon 
Johnson's Crime Commission in the 1960s. Chaired by former Attorney 
General Nicholas Katzenbach (someone I've had the pleasure to get to 
know over the past two years), the Commission has had a profound 
influence on criminal justice in this country.
    It called for a federal role in

        <bullet>  research

        <bullet>  fostering innovation in criminal justice

        <bullet>  gathering statistics and

        <bullet>  improving criminal justice.

    It also called for establishment of a small federal office to fund 
state and local innovations in criminal justice--the seed that led in 
later years to the creation of the Law Enforcement Assistance 
Administration (LEAA) and to the Office of Justice Programs in the U.S. 
Department of Justice. Many of the core federal functions that I 
describe in this statement had their origins in the Katzenbach 
Commission's report.
    These recommendations did not reflect partisan politics. They were 
re-affirmed in the Reagan Administration's report of the Attorney 
General's Task Force on Violent Crime (1981), which stressed the unique 
role of the federal government in demonstrating and promoting what 
works in crime prevention.\5\
---------------------------------------------------------------------------
    \5\ Attorney General's Task Force on Violent Crime, Final Report, 
U.S. Department of Justice, Washington, D.C. (1981).
---------------------------------------------------------------------------
           what are the key federal roles in reducing crime?
    There are six core ways in which the federal government can--and 
should--assist state and local government in addressing crime. It is 
important to underscore that five of these six roles do not entail 
large investments of federal dollars.

        1.  Developing knowledge is a central federal role in public 
        safety
          Just as research and experimental trials have led to better 
        ways to prevent and treat heart disease, the same has been true 
        for crime over the past four decades. We now know a great deal 
        more about how to deal with crime than we did in the 1960s. Two 
        key differences between medicine and crime, however, are that, 
        first, there are no business investors (like pharmaceutical 
        companies in medicine) funding research relating to public 
        safety and, second, the federal dollars devoted to crime 
        research are in the low millions--not in the billions (as at 
        NIH).
          But the federal government, in fact, has a crucial role to 
        play in supporting social science research and evaluation to 
        learn ``what works'' in addressing crime. Aside from an 
        occasional private foundation, no one else pays for this work 
        to get done. Nor is it realistic to think local jurisdictions 
        can afford to do this themselves.
          Why is this knowledge so important? The answer is that, 
        particularly at a time of tight budgets, we need to be 
        investing in evidence-based approaches that can actually help 
        reduce crime and we need to stop funding programs that don't 
        work, even when they have great popular appeal.
          Research also leads to the next breakthroughs--such as data-
        mining that is identifying the most likely murderers in the 
        phalanx of 52,000 probationers in Philadelphia. Or the survey 
        that tells us how law enforcement is really using closed 
        circuit television in different cities. Or the randomized 
        controlled experiment that demonstrates whether an in-prison 
        treatment for pedophiles can be effective in reducing future 
        offending.
          Research and development for new technologies to serve and 
        support criminal justice agencies has also been an important 
        role of LEAA and OJP. The Science & Technology Office within 
        the National Institute of Justice has made enormous 
        contributions to the field--including its network of National 
        Law Enforcement & Corrections Technology Centers that conducts 
        demonstration projects and provides invaluable assistance to 
        law enforcement to help it assimilate new technologies.

          2.  The federal government should collect and disseminate 
        independent and credible national statistics on crime
          The highly respected National Crime Victimization Survey 
        (NCVS) reported by BJS since 1973 has provided what the FBI's 
        Uniform Crime Reports has never attempted to produce: a count 
        of crime that includes serious offenses, like rape, that may 
        never be reported to police. This past year, however, BJS was 
        threatened by budget shortages for its crime victims' survey. 
        While this year's survey is going forward, the threat to a 
        three-decade data series is a reflection of the limited funding 
        that has been made available for this central federal function.
          Too often, BJS--despite its irreplaceable role--has been the 
        ``poor stepsister'' of the OJP agencies. In fact, at a time of 
        rising crime, BJS should be charged by Congress with a 
        broadened role in helping in our understanding of 
        victimization. BJS should be mandated to measure crime on a 
        state-by-state basis, even to the level of large cities, and 
        provided with appropriate funds to support this mission. At 
        present, the survey cannot provide this level of information.
          The integrity of crime statistics is crucial to ensuring 
        their credibility. No one questions Bureau of Labor Statistics 
        reports because no one would dare to ``mess'' with its 
        products. Yet a political appointee of the current 
        Administration did try to rewrite the press release describing 
        the findings of a key BJS report on racial profiling several 
        years ago. After BJS's Director objected to this political 
        interference, he was fired by the White House. For that reason, 
        I urge this Subcommittee to consider legislation to give BJS 
        explicit authority to issue its statistical reports and 
        explanatory press releases independent of any outside 
        clearance.

          3.  Federal dollars should support the innovation that 
        localities cannot fund on their own
          Supporting pilot projects through discretionary grants has 
        been a central feature of the federal criminal justice 
        assistance program from its earliest years--as the 1967 
        President's Crime Commission recommended. Funding of this kind 
        allows jurisdictions to implement programs that have been 
        proven effective or to undertake experimentation. Local 
        jurisdictions can rarely free up money to undertake these kinds 
        of initiatives. Once established and shown to be successful in 
        local settings, however, city councils or other budgetary 
        officials will frequently buy into their continuation. Drug 
        courts are a good example of this phenomenon.
          But probably the best illustration of this is the work of the 
        COPS Office--which has literally changed the face of policing 
        across the United States since it was established in 1994. What 
        is telling is that it is not just the hiring grants that caused 
        this revolution to occur. Perhaps more important was the change 
        in the culture of policing--and police/community 
        relationships--that occurred as a result of a myriad of COPS 
        innovation grants, conferences, and other initiatives.
          Other examples of LEAA/OJP-supported innovations include:

          <bullet>  Problem-oriented and hot spots policing

          <bullet>  Problem-solving courts (drug courts, mental health 
        courts, domestic violence courts, etc.)

          <bullet>  Victim/witness programs

          <bullet>  Career criminal prosecution units

          <bullet>  Bulletproof vests

          <bullet>  Forensic applications of DNA technology

          <bullet>  Drug testing programs

          <bullet>  Less-than-lethal weapons

          4.  There is no more central federal role than diffusion of 
        knowledge
          As I stated before, we already know a great deal about what 
        can be done to prevent and control crime. For example, we know 
        that, correctly used, drug treatment in the criminal justice 
        system can play a powerful role in helping change offender 
        behavior and reduce post-incarceration recidivism.\6\ We also 
        understand that, beyond a certain level, increasing rates of 
        incarceration (while adding a staggering burden to state 
        budgets) may not be as effective in reducing crime as other 
        strategies (such as increasing numbers of police and reducing 
        unemployment).\7\
---------------------------------------------------------------------------
    \6\ See http://www.nida.nih.gov/PODAT--CJ/faqs/faqs1.html#3 and 
http://www.evidencebasedprograms.org/Default.aspx?tabid=150, for 
example.
    \7\ See, for example, Reconsidering Incarceration: New Directions 
for Reducing Crime by Don Stemen, Director of Research, Center on 
Sentencing and Corrections, Vera Institute of Justice, January 2007.
---------------------------------------------------------------------------
          But we have done a poor job--especially at the federal 
        level--in getting information out. While I take credit for many 
        things accomplished in the seven years I headed OJP, this is an 
        area where I did not do enough to advance the ball.
          A strong recommendation I have therefore made to the House 
        Appropriations Subcommittee on Commerce, Justice, Science is to 
        mandate that OJP fund a ``What Works Clearinghouse'' that 
        summarizes--in brief, layperson's language--what is known from 
        research about evidence-based approaches to addressing crime. 
        Although it's hard to believe, no such resource now exists. A 
        clearinghouse of this kind should provide information written 
        in succinct, non-scientific language that is easily accessible 
        to criminal and juvenile justice practitioners. Information for 
        busy legislators and policymakers could be distilled into one-
        page summaries--something their staffs will do for them in any 
        event.
          This is an ideal role for the OJP agencies to undertake--in 
        fact, it's hard to think of a more central federal role than 
        this one. Three important resources here are:

          <bullet>  Evidence-Based Crime Prevention, edited by Lawrence 
        W. Sherman, David Farrington, Brandon Welsh, and Doris 
        MacKenzie (Routledge, 2002). This is an update of a 
        Congressionally-mandated report which OJP commissioned and 
        published in 1997 entitled, ``Crime Prevention: What Works, 
        What Doesn't, What's Promising.''

          <bullet>  The Coalition for Evidence-Based Policy, a project 
        of the Council for Excellence in Government in Washington, 
        D.C.\8\
---------------------------------------------------------------------------
    \8\ See http://coexgov.securesites.net/
index.php?keyword=a432fbc34d71c7 and http://
www.evidencebasedprograms.org/

          <bullet>  The Campbell Collaboration--an international non-
        profit organization that prepares systematic reviews of effects 
        of interventions, among others, in the area of crime and 
        justice.\9\
---------------------------------------------------------------------------
    \9\ See http://www.campbellcollaboration.org/index.asp and http://
www.campbellcollaboration.org/CCJG/index.asp

          5.  Technical assistance and training are two of the most 
        effective federal public safety investments
          During the years I spent at the Department of Justice I don't 
        think I saw a better expenditure of federal dollars (other than 
        on research) than those spent on technical assistance. Helping 
        practitioners do their jobs better--on the front lines--is the 
        ultimate way that the federal government can assist in 
        conveying evidence-based best practices. It's one of the most 
        cost efficient ways federal money is spent. And it's not about 
        spreading the wisdom of high-priced Washington consultants; the 
        best T.A. I saw provided was ``peer-to-peer'': Having drug 
        court judges from Portland, for example, host teams from other 
        jurisdictions. Judges trust what other judges tell them. So 
        we'd provide training for courts to serve as ``mentors'' and 
        fund travel so others could visit.
          Another good example of successfully integrated technical 
        assistance and training are the Regional Community Policing 
        Institutes (RCPIs). I've been a fan of these since their 
        creation by the COPS Office in the late 1990s. They provide 
        high quality but low cost (or free) training for law 
        enforcement agencies on topics ranging from community policing 
        and gangs to school safety and meth labs. The RCPIs have 
        provided a national presence with access to local 
        practitioners, but they are about to be a victim of the 
        dramatic cuts at COPS--a perfect example of a wonderful (but 
        low profile) investment of federal money that has built 
        infrastructure and credibility in the field, but now may be 
        dismantled.
          Yet another illustration of the federal government's central 
        role has been in encouraging better information sharing. The 
        Justice Information Sharing Initiative enables agencies to get 
        the information they need to be effective within and across 
        jurisdictions.

          6.  Larger federal grant programs--like JAG/Byrne and COPS--
        play a vitally important role
          None of the core federal criminal justice assistance 
        functions are expensive. Research, statistics, information 
        sharing, technical assistance and training, innovative pilot 
        programs--these are minimal investments in the scheme of the 
        federal budget. While each could surely use more money, none 
        requires substantial appropriations. The same, of course, is 
        not true of the large block grant programs, or large 
        discretionary grant programs like COPS, which have been a 
        mainstay of the LEAA/OJP program since the passage of the 1968 
        Safe Streets Act.
          The COPS program, in particular, has been distinctive. Even 
        those who have questioned the value of federal subsidies of 
        local police salaries have acknowledged that the COPS Office 
        has helped dramatically to spread the concept of community 
        policing and has reinvented the way a federal grant agency can 
        relate to its constituents. Continuation--and strengthening--of 
        the COPS program is something I strongly support (and passage, 
        therefore, of legislation like H.R. 1700, the COPS Improvement 
        Act of 2007, makes good sense).
          In general, it is extremely difficult, if not impossible, to 
        measure in any scientific way the impact of large programs like 
        the Byrne Justice Assistance Grant (JAG) program, for which 
        spending is invested in an almost limitless number of locally 
        chosen programs. Despite that, however, I come down in strong 
        support of continued federal funding of COPS and of JAG/Byrne. 
        State and local criminal justice right now is in a two-fold 
        crisis, dealing with rising crime, on the one hand, and 
        juggling additional responsibilities in the post-9/11 world, on 
        the other. In the spirit of the 40-year criminal justice 
        assistance program, federal leadership and support is vital to 
        help states and localities deal with the challenging problems 
        they are now facing of rising violent crime and homicide , 
        drugs, and gangs.
          I would offer these suggestions, however, regarding these 
        programs and the pending legislation before the Committee:

          <bullet>  Strongly encourage block grant program grantees to 
        consider funding programs of proven effectiveness. Creation of 
        a ``What Works'' clearinghouse would allow state and local 
        practitioners and policymakers to find that information much 
        more easily.

          <bullet>  Consider placing a four-year limit on federal 
        funding for projects, in light of the fact that federal money 
        should primarily be used for innovation, rather than ongoing 
        support.

          <bullet>  Emphasize the strengths of programs--e.g., in COPS, 
        to support community policing initiatives for crime prevention 
        and crime fighting, not just putting officers on the streets 
        (so to allow flexibility to support gang task forces, anti-meth 
        lab activities, and other specific initiatives to target 
        problem areas).

          <bullet>  Ensure and require coordination between DOJ's 
        efforts and those in DHS. I hear from state and local 
        practitioners examples of their need to coordinate ``on the 
        ground'' when the Departments of Justice and Homeland Security 
        have not adequately collaborated from inside the Beltway. That 
        kind of collaboration is tough in Washington. But it needs to 
        be done better.

          <bullet>  Support repayment of student loans for individuals 
        who remain employed as public prosecutors or public defenders. 
        The John R. Justice Prosecutors and Defenders Incentive Act of 
        2007, H.R. 933, deserves support because of the worthy goal of 
        encouraging young lawyers to enter public service in those 
        areas. Too frequently, recent law graduates are saddled with 
        such heavy loans that they have little choice but to enter 
        large law firms in order to repay those debts. My only 
        suggestion here is that--at some time in the future--this 
        Committee consider extending this program to encompass those 
        earning graduate degrees in programs such as the Masters 
        Program in Criminology at Penn and entering positions in 
        probation, corrections and law enforcement. Shouldn't young 
        people in these areas of public service deserve our support as 
        much as young lawyers do?
 final crime control recommendation: reducing homicide by focusing on 
                    probation and parole populations
    I want to end with a positive suggestion regarding an area where 
federal investment of dollars could make a substantial difference in 
reducing crime. For reasons that are hard to discern, federal grant 
programs over the years have largely ignored probation and parole 
populations. There are 6 million convicted offenders on probation or 
parole in the nation, compared to only 2.2 million offenders or 
defendants behind bars. Offenders in the community clearly present the 
greatest risk to public safety, yet they receive little attention from 
the criminal justice system or from public budget allocations.
    My Penn colleague Lawrence W. Sherman (Director of the Jerry Lee 
Center of Criminology) has pointed out that the majority of the 406 
murders in Philadelphia last year were committed by--or against--
individuals on probation, parole or pretrial release. He estimates that 
persons under the supervision of Philadelphia's Adult Probation and 
Parole Department (APPD) committed 22% of all homicides in the city in 
2006 and made up 16% of murder victims. ``This would mean that almost 4 
out of ten murders involved an APPD case as victim or offender,'' 
Sherman notes.\10\
---------------------------------------------------------------------------
    \10\ Lawrence W. Sherman, ``Reducing Homicide by Enhancing High-
Risk Probation and Parole: A Peer-Reviewed Grants Program,'' Testimony 
before the House Judiciary Subcommittee on Crime, Terrorism and 
Homeland Security, February 15, 2007.
---------------------------------------------------------------------------
    Using statistical data-mining techniques pioneered by another Penn 
colleague, Dr. Richard Berk, we are now working with Philadelphia's 
probation department to identify the handful of offenders most likely 
to kill or be killed. But with caseloads of 185 probationers per 
probation officer, such offenders usually receive minimal oversight. A 
small demonstration project with just five officers whose caseloads do 
not exceed 15 offenders is now testing a new way to prevent homicide. 
On a national scale, this approach could test a wide variety of murder 
prevention strategies--including clinical treatment for Post Traumatic 
Stress Disorder, drug abuse and mental illness--to prevent violence.
    If this kind of approach could be undertaken in carefully designed 
randomized controlled experiments under a federal grant program, using 
collaborations between local probation agencies and universities, there 
is real promise, using scientific knowledge, of reducing homicide in 
many violence-ridden communities around the country--a prime example of 
the kind of innovative federal/state/local partnerships this criminal 
justice assistance program has fostered over four decades.
                               conclusion
    Because of my longstanding involvement in the program, I have twice 
convened reunions of leaders of the LEAA/OJP agency--in 1996, as 
Assistant Attorney General, and again in 2006, as a private citizen. In 
both instances, I was struck by the support--across every era and from 
individuals of both political parties--for the federal criminal justice 
assistance program. The program has benefited from that passion, which 
has translated, I believe, into strong leadership over 40 years. For 
those of us who have had the chance to serve in that position, it has 
been an honor and a privilege to do so for a program dedicated to 
reducing crime and ensuring justice.
                               __________
    Mr. Chairman, I appreciate the opportunity to appear before the 
Subcommittee, and I would be happy to answer any questions.

    Ms. Waters. Thank you very much. Your time has expired.
    Next, we will hear from Mayor Douglas Palmer.

TESTIMONY OF THE HONORABLE DOUGLAS H. PALMER, MAYOR OF TRENTON, 
NEW JERSEY, PRESIDENT OF THE UNITED STATES CONFERENCE OF MAYORS

    Mayor Palmer. Thank you, Madam Chairwoman.
    It gives me great honor to be on this very distinguished 
panel and talk about an issue as president of the United States 
Conference of Mayors, a bipartisan organization of mayors 
representing over 1,100 cities in this country, something we 
are all united on.
    You have a 10-point plan that talks about Strong Cities, 
Strong Families for a Strong America, and, quite frankly, you 
cannot have a strong America, strong cities or strong families 
unless we have safe cities. As has been mentioned, it is very 
important that we have homeland security, but hometown security 
is equally important.
    About 389 days ago, I happened to be in Los Angeles with 
Mayor Villaraigosa and Attorney General Gonzales and other 
chiefs of police and mayors, and we talked about the issue of 
rising crime. After that hearing was over--it was on a Friday--
my police director got a call. He said to me, ``Hold on a 
minute, Mayor,'' and he came back and said, ``We had a 
shooting,'' which was the second one in 2 days.
    This time, it was a warm Friday afternoon, a 7-year-old 
girl by the name of Tajahnique Lee, who was doing what most 
young girls and boys would do on a summer day, while riding her 
bike, got caught in a crossfire of rival gangs and was shot in 
the face. This is something that happens far too often in all 
of our cities, suburban areas and across this Nation.
    As mayors, we understand. We have to make the phone calls. 
I had to make a phone call to her mother an hour later while 
she was in the hospital with her daughter and, of course, the 
things that her mother was saying to me, I could not really 
repeat, but I understand.
    As mayors, we are the ones that have to make the phone 
calls, and that is why the work that you are doing is so very, 
very important. As you have said many times, mayors are on the 
front line of these issues. We have to make the calls. We get 
the calls in the middle of the night. We confront the families. 
We go to the funerals.
    As crime has increased, we see a reduction in the COPS 
program, a program that is cost-effective, efficient and that 
works and achieves results. As we talk about a surge in Iraq 
and needing more soldiers, we talk about hometown security, we 
need a surge of police officers in our cities.
    It is unfortunate, and as someone that was educated in 
Trenton and at Hampton University and as an African-American 
man, it is very upsetting to me to have to say that we need to 
have more police, we need to arrest the bad guys out here, but 
quite frankly, we do.
    We need to make sure that we have common-sense gun 
approach. We need to make sure that we can close the gun show 
loophole. We need to make sure that we can deal with the Tiahrt 
amendment and have police officers be able to trace data. We 
also need to go after the cultural violence that permeates the 
airways. We also need the resources that critical for our 
police officers.
    Part of our 10-point plan is also about prevention, and I 
know the district attorney is doing great things as a result of 
re-entry and other kinds of issues that we support.
    But when we talk about the COPS program, I am urging a 
bipartisan way that we give the police officers the resources 
that they need, that we make sure that the funding is flexible 
so that some areas may not need as much police officers as they 
need help with other kinds of programs like technology or other 
kinds of things, but have it in a block grant approach.
    The mayors want to be held accountable and our police 
chiefs and police directors want to be held accountable for the 
results.
    We are at a critical time in this Nation's history where we 
see terrorism abroad, we see terrorism at home in the form of 
gangs and drugs and guns, and I think as a Nation we have to 
say enough is enough, that we need a comprehensive proactive 
approach, but we also need to have the resources that these 
police officers need to have more police on the streets.
    It is ironic that in England just last year when they 
foiled a terrorism plot, it was not the terrorism experts that 
did it. It was the cop on the block because the cops in these 
cities on the blocks know the neighborhood, know the people and 
know when something is wrong.
    This is a form, quite frankly, of helping fight domestic 
terrorism, and I urge the passage of the reauthorization of 
H.R. 1700 as well as, I think, that H.R. 933 is a great idea to 
help States and cities with witness protection.
    I thank you for your time.
    [The prepared statement of Mayor Palmer follows:]
         Prepared Statement of the Honorable Douglas H. Palmer
    Good afternoon. I'm Doug Palmer, Mayor of Trenton, New Jersey and 
President of The United States Conference of Mayors. I have been Mayor 
of Trenton since July 1990, and became President of The U.S. Conference 
of Mayors in December of 2006.
    I want to thank my good friend Chairman Scott for calling today's 
hearing on issues related to crime in America's cities, as well as 
Ranking Member Forbes, and the entire Subcommittee.
    This hearing is being held in the shadow of the April 16 tragedy at 
Virginia Tech University, where more than 30 people lost their lives, 
and many more are still suffering with injuries.
    I want to express my personal sympathy for the victims, and the 
parents, families, teachers and friends of those killed or injured in 
this terrible attack. And I want to especially express my support to 
both Chairman Scott and Ranking Member Forbes, who both represent the 
Commonwealth of Virginia.
    As this tragedy continues to demonstrate, gun violence and crime 
know no geographic boundaries. Whether at Columbine High School, or the 
Amish schoolhouse, or Virginia Tech University, or in cities across the 
nation every day, crime and violence are increasing.
    How do I know this is a life and death matter?
    In my own city, just over a year ago, seven-year-old Tajhanique Lee 
was out in the neighborhood riding her bike on a Friday evening. 
Unbeknownst to her, she rode right into a gang war, a reckless 
crossfire. And even though she was not the target, this beautiful 
little girl was shot through the mouth, the bullet going through both 
of her cheeks. Miraculously, she lived.
    As our country and our people united to address the reality of 
terrorism after the attacks of 9/11, we must unite now to address the 
reality of gun violence and crime which continues to ravage our cities, 
suburbs and rural areas alike.
    We must act now to prevent acts of violence and provide positive 
alternatives and help to those in need.
    To be very honest, I am angry.
    I am angry that after Columbine, Congress would not act to close 
the gun-show loophole, which allows criminals and others to buy guns 
without a background check.
    I am angry that the assault weapon ban was allowed to expire.
    I am angry that Congress has limited the ability of local law 
enforcement to trace illegal crime guns through the Tiahrt Amendment.
    And I am angry that positive law enforcement partnership programs 
like COPS and the local block grant have been eviscerated.
    We simply have to act now, and the nation's mayors are ready, 
willing, and able to stand with this Subcommittee and everyone in 
Congress who wants our help in moving forward a positive law 
enforcement and prevention agenda.
    Mayors know that our first responsibility must be public safety. 
Only when our cities are safe can we focus on other priorities such as 
public education, job creation, and affordable housing. That's why one 
of the top priorities in our new Mayor's 10-Point Plan on Strong 
Cities, Strong Families for a Strong America is support for anti-crime 
programs.
    In the 1990's, mayors and police chiefs put extensive effort into 
increasing public safety. And as we all know, there were dramatic 
results. Many cities saw crime rates drop to historic lows.
    We recognize that there were a number of factors for this reduction 
in crime--including a strong economy and tougher prosecution and 
sentencing practices, mainly of drug related crimes.
    However, additional police officers on the streets and greater 
support for innovative prevention programs had a major impact on crime.
    And, the partnership developed between the federal government and 
local governments--under programs such as COPS and the Local Law 
Enforcement Block Grant--greatly helped cities deploy more officers and 
change the way policing is done in America.
    I know that in Washington, there is debate as to whether these 
programs made an impact. In my city, and in thousands of cities across 
the nation, there is NO QUESTION that these programs made a significant 
difference.
    In my city of Trenton, we are confronting a small number of heavily 
armed street thugs who are intent on committing violence against one 
another.
    New Jersey, with huge public support, has some of the most 
stringent gun laws in the nation--but criminals circumvent those laws 
simply by crossing the state line--which is our city line--into 
Pennsylvania. There, an assault rifle can be purchased at a gun show 
for about a hundred dollars. Life should not be that cheap.
    I have been to Harrisburg to urge legislation addressing guns and 
gangs and now I am here before you . . . again making the case against 
a gun market that feeds those who are severely mentally ill . . . or 
whose ruthless drug trade often involves the assassination of young 
African American or Latino men.
    Rampant gun violence is more than a national tragedy. It is a 
disgrace.
    Recently in Trenton our police arrested a murder suspect. At the 
time of the killing, he was out on bail. He was awaiting trial on the 
charge of shooting at a Trenton police officer.
    Two years ago, a young man was arrested on gun charges four times 
in six months. Only on the fourth arrest was bail set high enough to 
keep him locked up.
    Clearly, we have to address this ``revolving door,'' which is why I 
am urging the New Jersey General Assembly to create a special ``gun 
court'' to focus on weapons crimes and the small number of repeat 
offenders who are responsible for so much violence.
    Like all mayors, I am responsible to the residents of my city for 
keeping our streets safe. Working for tougher gun laws everywhere in 
America is what I have to do to meet that responsibility.
    In my city, as in many in the Northeast, we are the objective for 
an interstate gun market. Half the guns confiscated by our police come 
from Pennsylvania. They come up from Virginia, Georgia, and Florida.
    Who in their right mind would twist this situation into a threat 
against the rights of hunters? We must confront the real threat--to 
innocent citizens. We must put some reasonable curbs on what is a 
scandalous supply line to chronic offenders who use guns--and to do so 
we need leadership and partnership, not rhetoric.
    While the history of the 1990's was one of partnership and crime 
reductions, what has happened in recent years has been very different.
    Cities lost more than $2 billion annually as the COPS hiring 
program was eliminated, and the local block grant was merged into the 
Byrne Justice Assistance Grant program--and then slashed. And now many 
cities are seeing significant crime increases.
    The latest findings from the Police Executive Research Forum found 
that some cities are experiencing double-digit or even triple-digit 
percentage increases in homicides and other violence.
    PERF's 56 city survey found that over a two year period:

        <bullet>  Total homicides were 10.21 percent higher;

        <bullet>  Robberies increased 12.27 percent;

        <bullet>  Aggravated assaults increased 3.12 percent; and

        <bullet>  Aggravated assaults with a firearm increased by 
        almost 10 percent.

    Funding cuts are not the sole cause of the recent crime increases. 
But they DID have a major impact.
    In my city, crime dropped 27 percent last year--but our focused 
enforcement required us to exceed our budget by $6 million.
    Cities face many problems related to crime such as:

        <bullet>  the growth of gangs;

        <bullet>  the increased availability of illegal guns--something 
        made harder to address by bad federal policies;

        <bullet>  drug abuse, including new drugs such as meth; and

        <bullet>  the return of more than 600,000 ex-offenders annually 
        to our cities.

    There is also a growing culture of youth violence and disrespect on 
our streets--fueled by negative media and entertainment images and 
messages--that is contributing to the increase in crime.
    And all of this is happening at the same time that local 
governments are being asked to do more to help secure our nation from 
terrorist attacks.
    I know that the federal government has increased anti-terrorism 
grants, but the increased support for ``homeland'' security has 
unnecessarily come at the expense of ``hometown'' security.
    We need to once again form a strong partnership between the federal 
and local governments to fight crime. And we also need to focus greater 
attention on successful efforts to prevent crime, and create meaningful 
alternatives for children and young adults.
    Chairman Scott recently participated in a meeting of our Criminal 
and Social Justice Committee. Half-way through a discussion on crime 
prevention, the mayors switched to a discussion of education and after-
school programs. Clearly, the issues of crime, education and 
opportunity cannot be separated.
    In Summits we have held across the country, the Conference of 
Mayors has been focusing on finding innovative ways to:

        <bullet>  improve early childhood education;

        <bullet>  strengthen school learning;

        <bullet>  reduce school dropout rates;

        <bullet>  promote after-school opportunities; and

        <bullet>  increase college and workforce preparedness.

    Law enforcement officers can be a critical resource in not only 
enforcing laws, but in preventing crimes and creating positive 
environments in schools and communities.
    The Conference of Mayors has adopted policy which calls for the 
reauthorization of the COPS program, and we urge passage of H.R. 1700, 
sponsored by Representatives Weiner, Scott and Keller. As this bill 
moves forward in the House and the Senate, we hope that it will contain 
a number of elements supported by our policy including:

        <bullet>  Funding for the hiring or re-deployment of additional 
        officers, with a continued emphasis on community oriented 
        policing in and around schools;

        <bullet>  Significant retention funding beyond the initial 
        three years of the program for officers where local fiscal 
        conditions require continued support;

        <bullet>  Much needed flexibility to pay overtime so long as it 
        results in an increase in the number of officers deployed in 
        community oriented policing;

        <bullet>  A significant increase in the per-officer funding 
        limitation;

        <bullet>  Significant support for crime-fighting technology 
        including: improved public safety communications and crime 
        mapping; expansion and replacement of facilities necessitated 
        by the hiring of additional officers; and crime solving 
        technologies including crime lab improvements and DNA backlog 
        reductions; and

        <bullet>  Support for the criminal justice system including 
        efforts to increase community prosecutions.

    We also commend the new Congress for increasing funding for COPS 
and the JAG program--the first time in years that the programs were not 
cut--and urge that both programs be fully funded in Fiscal Year 2008.
    And while we have not adopted official policy on the matter, I 
think that H.R. 933--which would establish within the United States 
Marshals Service a short-term State witness protection program to 
provide assistance to state and local district attorneys to protect 
their witnesses in cases involving homicide, serious violent felonies, 
and serious drug offenses--could be very helpful.
    All levels of government need to work closer together to find 
innovative ways to:

        <bullet>  Reduce the availability of illegal drugs;

        <bullet>  Increase access to drug treatment;

        <bullet>  Help ex-offenders successfully re-enter society;

        <bullet>  Keep kids out of gangs, and prosecute gang crimes 
        with all available resources; and

        <bullet>  Fight the illegal gun trade and adopt common sense 
        gun laws.

    I want to end on this last point. April 16, 2007 is a national day 
of tragedy.
    We need a common sense approach to guns in America.
    We must allow the police to do their jobs and trace illegal guns by 
defeating the Tiahrt Amendment.
    We must close the gun show loophole which allows guns to be sold 
without background checks.
    We must prohibit the sale of military-style assault weapons and 
large capacity ammunition clips.
    We must make sure that records are accurate and shared regarding 
those who should be prohibited under current law from purchasing a 
firearm.
    The federal government must actively enforce all the current gun 
laws, and make sure the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF)--which has been a strong partner with local 
governments--is provided all the resources and staff it needs to help 
keep America safe.
    Beyond legislation, a new effort must be made against the use and 
trafficking of illegal weapons. Weapon buyback programs and ballistics 
tracking offer the hope of reducing the toll these weapons take on our 
citizens, our communities, our children. And in our communities, we can 
do more to help teachers, coaches and family members intervene where 
predictors for violent behaviors exist.
    But comprehensive legislation at the federal level can take the 
lead in ensuring uniform protections and bringing safety to our 
communities. The dangers raised by inadequate protections in any given 
state threaten us all.
    Our nation lost more than 30 people at Virginia Tech University, 
and we lose thousands more in cities across America every year to gun 
violence and crime.
    This issue has been labeled gun control and cast in the terms of 
sacred, abstract constitutional arguments.
    But respectfully, I am here to tell you that there is nothing 
abstract about innocent victims being wounded and killed.
    Yes, we have a Second Amendment, but we also have a Declaration of 
Independence and there is something to be said for life, liberty, and 
the pursuit of happiness. Bi-partisan, common sense action must be 
possible, and we call on Congress and the President to act now.
    Thank you.

    Mr. Scott. Chief Mosca?

  TESTIMONY OF EDMUND H. MOSCA, CHIEF OF POLICE, OLD SAYBROOK 
    DEPARTMENT OF POLICE SERVICES, OLD SAYBROOK, CONNECTICUT

    Chief Mosca. Thank you, Mr. Chairman. I am here 
representing the International Association of Chiefs of Police 
as its legislative chairperson this afternoon, and I appreciate 
this opportunity.
    The IACP has been and continues to be a strong supporter of 
the COPS program and the COPS Office. Since its inception in 
1994, the COPS program and the community policing philosophy 
that it fosters has been very successful in helping law 
enforcement agencies throughout the Nation reduce crime rates 
and maintain safer communities. That is why we are so pleased 
to be here today to express our strong support for H.R. 1700, 
the COPS Improvement Act.
    The COPS Improvement Act will, if enacted, allow us to 
build upon and extend the success of the COPS program when the 
COPS program was fully funded almost a decade ago. Communities 
throughout the Nation witnessed a remarkable decline in the 
crime rate. Years of innovative and effective efforts by 
Federal, State, tribal and local law enforcement agencies 
enabled us to transform our neighborhoods from havens of fear 
to safer, more secure communities.
    I can speak from personal experience about the value and 
the benefits of the COPS program provided to the local police 
departments. In the 1990's, the COPS program made a profound 
impact on the ability of my department to protect the citizens 
that we served.
    I was able to hire additional officers, purchase equipment, 
provide training that would have been otherwise out of reach 
for a smaller department like mine. We were also able to 
establish a highly successful and acclaimed school resource 
officer program which provided a practical level of security 
within our school system.
    As a result of this assistance, my officers were better 
equipped, better trained and better positioned to fulfill their 
mission on a daily basis.
    However, the success of the COPS program is not derived 
solely from the amount of Federal assistance funds that have 
been made available to State, local and tribal law enforcement 
agencies, but also in the manner in which the program has 
operated.
    The key to the success of the COPS program is that it works 
with individuals who best understand the needs of their States, 
communities--State, tribal and local law enforcement 
executives. By adopting this approach, the COPS Office ensures 
that the right funds are provided to correct agencies to 
address appropriate needs.
    Yet despite the best efforts of our Nation's law 
enforcement officers, the disturbing truth is that each year in 
the United States, well over a million of our fellow citizens 
are victims of violent crime. Unfortunately, in the last 2 
years, we have seen a steady increase in the rate of violent 
crime in the United States. According to the FBI Uniform Crime 
Report, violent crime rose at a rate of 2.5 percent during 
2005. To put that into perspective, that is an additional 
31,479 victims.
    This increase in the crime rate appears to be accelerating 
for the first 6 months of 2006. The crime rate rose at a 
percent of 3.7 percent when compared to the same frame in 2005. 
If this rate holds for the final 6 months--and I am sorry to 
say that I believe that it will--it will mean an additional 
47,000 Americans found themselves victims of violent crime.
    Further, for violent crime in general, cities with 
populations of 25,000 to 50,000 are seeing the fastest-growing 
incidents. From 2004 to the first 6 months of 2006, the violent 
crime rate in these communities rose by more than 8 percent. In 
towns with populations of 10,000 to 25,000, the homicide rate 
went up more than 6.5 percent over the same 2-year period.
    I believe it is important to note that when compared to 
fiscal year 2002, the funding level of $3.8 billion, the 
Administration's fiscal year 2008 proposal represents a 
reduction of more than $3.2 billion, or 85 percent, and no 
program has been hit harder than the COPS program.
    It is for these reasons that the IACP is such a strong 
supporter of the COPS Improvement program. By reauthorizing and 
expanding the mission of the COPS program, this legislation 
will ensure that the COPS program continues to serve and assist 
the State, tribal and local law enforcement communities.
    For 5\1/2\ years, law enforcement agencies and officers 
have willingly made the sacrifices necessary to meet the 
challenges of fighting both crime and terrorism. They have done 
so because they understand the critical importance of what they 
are sworn to do and they remain faithful to fulfilling their 
mission of protecting and serving the public.
    However, the expenditure of resources necessary to maintain 
this effort has left many police departments in a financial 
situation so dire that their ability to provide the services 
their citizens expect and deserve has been threatened and, in 
fact, diminished. This must not and cannot continue.
    If our efforts to reduce crime and promote homeland 
security are to have any chance of succeeding, it is absolutely 
vital for Congress and the Administration to make the necessary 
resources available that would America's first line of defense, 
law enforcement, to mount successful and effective anti-crime 
programs, which are also effective anti-terrorism programs.
    That concludes my statement, and I would certainly be 
pleased to answer any questions you may have.
    [The prepared statement of Chief Mosca follows:]
                   Prepared Statement of Edmund Mosca

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ATTACHMENT

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Scott. Thank you. Thank you.
    Ms. Harris?

TESTIMONY OF THE HONORABLE KAMALA D. HARRIS, DISTRICT ATTORNEY, 
               CITY OF SAN FRANCISCO, CALIFORNIA

    Ms. Harris. Good afternoon, Chairman Scott and Ranking 
Member Forbes and other Members of the Committee. My name is 
Kamala Harris. I am the District Attorney of the City and 
County of San Francisco, and I also serve on the board of 
directors of the National District Attorneys Association.
    I will be speaking about each of the three bills, beginning 
with H.R. 933, Witness Intimidation.
    Nationwide, witness intimidation is among the most urgent 
and important challenges facing prosecutors and police, and the 
issue seriously undermines our efforts to catch and prosecute 
the country's most dangerous and violent criminals. In many 
jurisdictions, in fact, it has become an epidemic.
    District Attorney Dan Conley of Boston, a colleague serving 
on the National DA's Association, reports that 90 percent of 
his office's gun-and gang-related cases involve some form of 
witness intimidation. Baltimore states attorney Pat Jessamy 
also estimates that there has been witness intimidation in 90 
percent of her homicide cases.
    In a recent Massachusetts survey of children and teenagers, 
64 percent said that people will not report gang-related crime 
because they are afraid of retaliation or being killed. 
Recently, this hit home for us in San Francisco.
    We had basically a real tragedy occur when one of our 
witnesses, who I will refer to as a hero, was murdered in the 
streets of San Francisco simply because he had the courage to 
come forward and be willing to testify about this most 
outrageous crime. His name was Terrell Rollins.
    Terrell Rollins was shot, and he was seriously injured by 
the alleged shooter in the homicide case. He agreed to come 
forward and be relocated through our witness relocation 
program, and as a result of his safety during that time in the 
program, he successfully testified before the grand jury, which 
returned an indictment.
    Tragically, however, he returned to the old neighborhood, 
and he was killed, as we could have predicted.
    He was a witness and the only witness in that case, and as 
a result, the court had to dismiss that homicide case against a 
killer who is now walking the streets. And by the way, no 
witnesses have come forward to talk about the killing of 
Terrell Rollins.
    Last year, in San Bernardino, California, two witnesses 
were also killed. Eighteen-year-old Melquiades Jose Rojas 
testified before two gang members and against two gang members 
in a murder case. After he testified, he was found dead, shot 
25 times.
    In another case in San Bernardino, a defendant broke into a 
witness's home and killed the witness and the witness's father 
and wounded the witness's infant son.
    In 2003, in Shenandoah County, Virginia, Mr. Forbes, a 17-
year-old girl was found stabbed to death on the banks of the 
river. She was 4 months pregnant. She had cooperated in the 
investigation of a Texas gang homicide but left the Federal 
Witness Security Program. Four gang members were charged with 
her murder.
    Each of these cases underscores the urgent need for H.R. 
933. Law enforcement must have the tools we need to bring order 
to communities that are too frequently being overrun and 
overwhelmed by gang violence.
    H.R. 933 is critical also because local and State witness 
relocation programs are severely under funded. In fact, 
California only has $3 million per year for witness protection 
for the entire State. In 2005, Baltimore only had $400,000 to 
relocate 184 families. Federal support is necessary because 
effective witness support is essential to our ability to 
respond to an increasingly rising tide of violence, as the 
chief of police has indicated.
    And certainly, if law enforcement is unable to ensure 
safety for its own witnesses, who can? We cannot ask courageous 
witnesses to come forward, putting their lives on the line, if 
we are not willing to dedicate all and any resources necessary 
to protect them, to keep them safe and then to ensure serious 
consequences for those who are committing murders and gang 
violence in our community.
    As it relates to H.R. 1700, I agree with what the speakers 
have said before me. I believe that it will help to address 
violence and witness intimidation in addition. More violent 
crime, but fewer witnesses, as I have mentioned, are coming 
forward to help police and prosecutors get violent criminals 
off the street. Many murders, in fact, remain unsolved 
throughout this country and not because there are no witnesses, 
but because no witnesses will come forward.
    For example, in San Francisco, out of 181 murders occurring 
in 2005 and 2006, police have only cleared 30 percent. In 
Philadelphia, half the murders since 2002 remain unsolved. In 
Palm Beach County----
    Mr. Scott. Ms. Harris, could you----
    Ms. Harris. I will close it up, and I think I have made my 
point, which is that we have a situation where we absolutely 
have to ensure that we are protecting witnesses. I believe the 
COPS funding will help police officers on a local basis do 
that.
    And finally, I would ask your support of the ability for 
prosecutors and public defenders to receive support in reducing 
their loan debt so that they can continue to do the important 
work they do pursuing criminal justice and justice in our 
courthouses across this country.
    Thank you.
    [The prepared statement of Ms. Harris follows:]
          Prepared Statement of the Honorable Kamala D. Harris
                              introduction
    Chairman Scott, Member Waters, Member Forbes, and Members of the 
Committee on the Judiciary:
    My name is Kamala D. Harris, and I am the District Attorney for the 
City and County of San Francisco. I have served in this capacity for 
the last three years and have been a career prosecutor for the last 
seventeen years. Prior to being elected District Attorney, I served as 
a prosecutor in Alameda County, California specializing in the 
prosecution of child sexual assault cases, homicides, and other violent 
crimes. I also served as Chief of the Career Criminal Unit of the San 
Francisco District Attorney's Office and the Chief of the City 
Attorney's Division of Families and Children. I currently serve on the 
board of the National District Attorneys Association.
    I would like to extend my sincere thanks to Chairman Scott for 
inviting me to speak on these urgent issues. I am very grateful for the 
opportunity to address the Committee regarding House Resolution 933, 
the ``Witness Security and Protection Act of 2007,'' H.R. 1700, the 
COPS Improvement Act of 2007, and H.R 916, the ``John R. Justice 
Prosecutors and Defenders Incentive Act of 2007.''
   h.r. 933: witness intimidation--the scope and impact on criminal 
                              prosecution
    It is fitting that we are considering the pressing matters of 
witness intimidation and witness security during National Crime 
Victims' Rights Week. Nationwide, witness intimidation is among the 
most urgent and important challenges facing prosecutors in the pursuit 
of justice for crime victims.
    Simply put, across the country, witnesses are increasingly refusing 
to come forward to provide information to law enforcement or to testify 
in serious and gang-related criminal cases. Many witnesses simply 
refuse to cooperate with law enforcement and are fearful of being 
labeled a ``snitch'' or becoming victims of violence themselves. Many 
have received threats or have been otherwise intimidated.
    This problem of witness intimidation strikes at the very heart of 
the American criminal justice system. Without witnesses coming forward 
to provide information leading to the arrest and prosecution of violent 
criminals, law enforcement cannot apprehend and prosecute those accused 
of serious and violent crimes. Indeed, the structure of our adversarial 
system presumes that witnesses will be available and willing to 
testify. The Sixth Amendment to the United States Constitution 
guarantees the accused the right to confront witnesses against him 
because it assumes that witnesses will come forward. But in an 
increasing number of cases, witnesses are being intimidated, threatened 
or even killed.
    While it has been difficult for researchers to quantify the scope 
of witness intimidation, the vast majority of prosecutors and police 
believe that witness intimidation is a paramount concern. The available 
data strongly support their view. District Attorney Daniel Conley of 
Suffolk County, Massachusetts reports that 90% of his office's gun and 
gang-related cases involve some form of witness intimidation. 
Baltimore's State's Attorney, Patricia Jessamy, estimates that 90% of 
her office's homicide prosecutions involve some form of witness 
intimidation or coercion. Between 2000 and 2005, the Los Angeles Police 
Department reported a yearly average of more than 778 gang-related 
witness intimidation offenses.
    The data suggest a troubling increase in witness intimidation 
compared to a decade ago. According to the National Institute of 
Justice's 1995 study of witness intimidation, only 51 percent of 
prosecutors in large jurisdictions and 43 percent in small 
jurisdictions said that the intimidation of victims and witnesses was a 
major problem.\1\ Prosecutors across the country believe that the issue 
of witness intimidation is the single biggest hurdle facing any 
successful gang prosecution.
---------------------------------------------------------------------------
    \1\ Johnson, Claire, Barbara Webster, and Edward Connors, 
``Prosecuting Gangs: A National Assessment,'' Research in Brief, 
National Institute of Justice, United States Department of Justice, 
February 1995.
---------------------------------------------------------------------------
    Perhaps the most compelling evidence of the broadening scope of the 
witness intimidation problem is its impact on the attitudes of teens 
and young adults toward testifying. Their attitudes toward law 
enforcement and testifying are critical, as young people are often the 
eyewitnesses to gang-related crimes in their neighborhoods. The mere 
perception of retaliation profoundly impacts their willingness to 
cooperate with law enforcement. In a recent study, ``Snitches Get 
Stitches: Youth, Gangs, and Witness Intimidation in Massachusetts,'' 
sponsored by the Massachusetts Executive Office of Public Safety and 
the National Center for Victims of Crime, 641 young people between 12 
and 18 years old who attend Boys and Girls Clubs in Massachusetts were 
surveyed. Twenty-five percent of survey participants said that none of 
their neighbors would report a gang-related crime, and 64 percent said 
that people will not report such crimes because they are afraid of 
retaliation or being killed. The number of young people who reported 
these attitudes was far higher than the 12% of participants who had 
actually been threatened for reporting a crime.
    There is a very high level of fear of retaliation, fear which may 
often by driven by recent, high-profile crimes committed against 
witnesses who participated in witness relocation and protection 
programs.
   local law enforcement's need for expanded witness relocation and 
                          protection services
    As H.R. 933 recognizes, witness relocation and protection programs 
are law enforcement's primary tool to respond to witness intimidation. 
Unfortunately, most local and state-level witness relocation and 
protection programs are temporary, severely underfunded, and provide 
few services to witnesses. Above all, these relocation programs are 
voluntary, and witnesses can, and often do, leave at any time. Indeed, 
in several recent cases, witnesses have left relocation programs 
against advice, returned to their old neighborhoods, and were killed. 
As detailed below, one such case occurred in San Francisco, others have 
occurred around the state of California, and there are other similar 
examples across the nation.

        <bullet>  San Francisco, CA. Last year, an heroic young 
        witness, Terrell Rollins, was killed by three masked gunmen 
        after leaving my office's Witness Relocation and Assistance 
        Program and returning to his old neighborhood. Mr. Rollins had 
        testified before a grand jury in a homicide case in which he 
        had also been shot and severely injured. His life was 
        threatened for testifying, so he agreed to be relocated from 
        his old neighborhood. Tragically, he returned to that 
        neighborhood and was gunned down in broad daylight. He was a 
        hero, and his death sparked a major outcry from the community. 
        I convened a citywide summit of faith, community and law 
        enforcement leaders after he was killed to develop a community-
        based plan for supporting victims and witnesses who agree to 
        testify in court. The homicide case in which Terrell was to 
        testify was dismissed. Meanwhile, no witnesses have come 
        forward to help the police solve Terrell's murder.

        <bullet>  San Bernadino, CA. Two witnesses in San Bernadino 
        were killed after coming forward to testify in violent criminal 
        cases. Eighteen year old Melquiades Jose Rojas testified 
        against two alleged gang members in a murder case in San 
        Bernadino. Shortly after he testified, he was found shot to 
        death on the side of a road. He had been shot twenty-five times 
        in the head and chest. He had qualified for witness relocation, 
        but he had returned home and had not relocated at the time he 
        was killed. In another case, a defendant broke into the home of 
        a witness who had testified against him. The defendant also 
        killed the witness's father and wounded his infant son.

        <bullet>  Baltimore, MD. A 17-year-old cooperative witness to a 
        gang murder was shot in the back of the head by two members of 
        the suspect's gang.

        <bullet>  Shenandoah County, VA. In 2003, a 17-year-old girl, 
        who was four months pregnant, was found stabbed to death on the 
        banks of the Shenandoah River. She had been a witness to a gang 
        murder in the state of Texas and had been in the federal 
        witness protection program, which she voluntarily left and 
        rejoined her gang, the notorious Mara Salvatrucha gang, 
        commonly known as MS-13. She was apparently killed for past 
        cooperation with law enforcement. Four MS-13 members were 
        charged in federal court for her murder.

    These cases are tragic, and they contribute to the climate of fear 
and intimidation in communities under siege by gangs and violence. 
These cases also dramatically underscore the urgent need for H.R. 933 
and additional resources for local law enforcement to relocate and 
protect witnesses who courageously come forward.
    Many local witness relocation, assistance and protection programs 
are severely under-funded, to the extent they even exist as formal 
programs. Operating on shoestring budgets, local law enforcement 
agencies often can only provide temporary services for no longer than 
the duration of the underlying criminal prosecution. Even in 
California, our state only budgets $3 million per year for witness 
protection for the entire state. In 2005, 184 families were relocated 
from Baltimore, but the city only has a $400,000 budget for witness 
relocation. In smaller jurisdictions and states, witness relocation or 
protection consists of giving a witness rent money for a hotel or 
helping them move in with relatives or friends.
    Effective witness relocation, support and protection are essential 
to our ability to respond to a rising tide of violence in our country. 
If law enforcement is unable to ensure safety for its own witnesses, 
who can we protect? It is unacceptable for us to ask heroic witnesses 
to come forward, putting their lives and the lives of their families on 
the line, if we are not willing to dedicate the resources necessary to 
keep them safe. The problem of gang violence and intimidation is most 
acute in our nation's most struggling communities. We must make real 
the promise of safety for those neighborhoods. We cannot tolerate in 
America that there are zones of lethality in urban centers across the 
country, zones of lethality a few miles from where we sit today, zones 
that those of us fortunate enough to have the option, never drive 
through, and where we certainly do not linger.
    Law enforcement must have the tools necessary to bring order to 
those communities overrun by gang violence. And let us not suppose that 
the rest of us are immune from the effects of that violence simply 
because we may live in a different zip code. We are all at risk when 
murderers and violent gang members are left free to commit crime in a 
lawless environment. There must be consequences for violent crime. 
Accountability for the perpetrators so often rests on the ability of 
witnesses to participate in our criminal justice process.
    I believe the Witness Security and Protection Act of 2007 will 
provide critical resources to local and state law enforcement agencies 
to shore-up local efforts to relocate and protect our witnesses. It 
would establish within the United States Marshals Service a short-term 
witness protection program to provide assistance to state and local 
prosecutors to protect their witnesses in serious criminal cases. This 
assistance will be especially critical for smaller jurisdictions and in 
states where there are few, if any, existing resources for witness 
relocation and protection.
 additional suggestions for witness relocation and protection services
    In addition, I suggest that the Committee consider funding a more 
comprehensive, victim-centered approach to witness relocation and 
protection. Relocation must be a long-term option for witnesses and 
their families. Many witnesses have left their neighborhoods for the 
first time, and they often return home to danger against the advice of 
law enforcement because their participation is voluntary. To ensure 
that witnesses remain in their new, safer communities, witnesses and 
their families should receive comprehensive advocacy to connect them 
with services and opportunities in their new environment. In my office, 
I assign a Victim Advocate to each witness and family in relocation. 
The Victim Advocate works to connect witnesses and their families with 
counseling, treatment, education, recreation programs, and local 
service providers, so they can productively occupy their time and 
become grounded in their new host community while they are relocated. 
The goal is to meaningfully connect them to their new community so they 
are more likely to resist the pull of the familiar and return to their 
old neighborhood where they face danger. It is imperative to make this 
investment, so that witnesses remain relocated, available to testify at 
trial, and murderers can be brought to justice.
   h.r. 1700: the critical importance of community-oriented policing 
        services and improving cooperation with law enforcement
    Addressing intimidation and retaliation is necessary but, on its 
own, not sufficient to ensure broad and sustainable cooperation from 
witnesses. Across the country, in large and small communities, 
witnesses are simply are not coming forward and will not cooperate with 
law enforcement. This is a community-wide problem that requires a 
community-wide approach, particularly federal support for community 
policing efforts.
    The primary evidence of this broad reluctance to cooperate with law 
enforcement is the high number of unsolved murders in urban and 
suburban America. While the impact is most severe in predominantly 
poor, minority neighborhoods in major American cities, smaller and more 
rural areas have been impacted as well. In many unsolved murder cases, 
there were several, if not many, eyewitnesses to the murders, none of 
whom have been willing to come forward.
    For example, in San Francisco, out of 181 murders occurring in 2005 
and 2006, police have only cleared 30%. There have been murders in my 
city committed in broad daylight where we know there were 10 or more 
eyewitnesses, yet no one has come forward and the crimes remain 
unsolved. The killers remain on the loose, surely prepared to kill 
again. In Philadelphia, half of the murders since 2002 remain unsolved. 
According to my good friend and colleague Professor David Kennedy at 
the City College of New York, who is among the nation's leading experts 
on criminal justice issues, recently stated that the solve rates for 
homicides in some urban communities have dipped into single digits, far 
below the national standard of roughly 60%. A similar trend is 
occurring in smaller and medium-sized jurisdictions. In Palm Beach 
County, Florida, all of the county's seven murders this year remain 
unsolved. In Pomona, California, only 44% of the city's homicides had 
been solved at the end of 2006.
    Many witnesses perceive cooperating with law enforcement as 
``snitching.'' Over the last few years, a ``Stop Snitching'' phenomenon 
has developed in youth culture, reflected in underground DVD's and the 
ubiquitous ``Stop Snitching'' t-shirts people wear in courthouses 
across the country, including parents who have worn the shirts to their 
children's court hearings in our juvenile courthouse in San Francisco. 
In Boston, the presiding judge saw so many of the t-shirts in his 
courtroom that he banned ``Stop Snitching'' attire from the court 
building and property.
    My experience with young people in my jurisdiction also reflects 
the strong influence of the ``Stop Snitching'' attitude and refusal to 
report crime. In the aftermath of the murder of Terrell Rollins that I 
described earlier, I organized a citywide summit on witness 
intimidation with faith, community, youth and law enforcement leaders. 
We held a focus group with four young adults between 16-28 years old, 
who said that fear of ostracism from their community was a primary 
reason for refusing to ``snitch'' on others.
    This suggests that entire communities are experiencing a reluctance 
to come forward. Witnesses fear being cast out of their communities and 
labeled ``snitches'' in addition to literal retaliation. This requires 
a broad, community-based response from police and prosecutors in close 
partnership with a broad cross-section of partners--in other words, an 
aggressive commitment to community policing.
    Community policing is the cornerstone of efforts to build the bond 
of trust between police and prosecutors and the communities we serve. I 
strongly support restoration of the cuts imposed on the COPS program 
and urge the Committee to support the program.
    Community policing promises a durable, meaningful partnership 
between police and citizens to prevent crime, solve problems and 
conditions that encourage crime, and work together to hold perpetrators 
accountable for committing crimes. Most models of community policing 
focus on the delivery of police services that includes aspects of 
traditional law enforcement, as well as prevention, problem-solving, 
community engagement, and partnerships.
    Community policing is the most important component of the very best 
response to crime, preventing it in the first place. Significant spikes 
in violent crime in many urban centers threaten to reverse many years 
of tremendous improvement in crime rates. Restored funding for the COPS 
program will increase the number of police officers on the street at a 
time when we face a critical juncture in crime control for our country. 
This funding is, again, vital to our duty to protect from crime and 
violence every citizen, every neighborhood, no matter how poor or 
marginalized. But we cannot be shortsighted enough to think that the 
recent increases in violent crime will remain isolated in pockets of 
poverty. Crime is on the rise and our response must be swift and 
substantial so that violence is quickly brought under control before it 
spreads and becomes more acute.
h.r. 916: the law school student loan debt problem for prosecutors and 
                            public defenders
    It is imperative that prosecutors' offices are able to recruit the 
best and brightest attorneys and retain the most qualified and 
experienced prosecutors in their offices. The ``John R. Justice 
Prosecutors and Defenders Incentive Act'' will provide a modest 
incentive to attract prosecutors and public defenders to public service 
and help them maintain that commitment throughout their careers.
    This is an issue on which the National District Attorneys 
Association believes urgent Congressional action is needed. I should 
note that I am also advocating on behalf of both prosecutors and public 
defenders. We are united in this effort to ensure that our offices are 
fully staffed with trained and experienced attorneys because we have an 
equally strong interest in maintaining confidence in the criminal 
justice system.
    Prosecutors continue to be paid low salaries compared to those in 
the private sector. In 2006, Equal Justice Works reported in Financing 
the Future, Responses to the Rising Debt of Law Students that starting 
salaries for state and local prosecuting attorneys averaged 
approximately $44,000.\2\ Prosecutors' offices simply cannot compete 
with private firms to attract the best and brightest lawyers. With 
major law firms offering starting salaries of over $125,000 per year, 
the modest salaries young prosecutors earn pale in comparison. And it 
is not a lack of commitment to public service that draws many law 
school graduates away from public service, but their student loans. 
Burdened with loan debt from undergraduate and graduate studies, the 
Equal Justice Works study concluded that the ``average amount borrowed 
in law school by the class of 2005 was $78,763 at a private school and 
$51,056 at a public school. Many lawyers in my office owe over $100,000 
in law school debt alone.
---------------------------------------------------------------------------
    \2\ Heather Wells Jarvis, Financing the Future, Responses to the 
Rising Debt of Law Students, 2nd Edition, Equal Justice Works, 2006, 
citing National Association for Law Placement (NALP) 2006 Public Sector 
and Public Interest Attorney Salary Report.
---------------------------------------------------------------------------
    This unfortunate combination inevitably causes high turn-over rates 
that result in less experienced prosecutors in courtrooms across this 
country handling more and more serious criminal cases. Neither the 
safety of victims and the public, nor due process protections for the 
accused, should be short-changed while a new prosecutor or public 
defender ``learns the ropes.''
     survey of the nation's prosecutors regarding student loan debt
    In 2005, the National District Attorneys Association's Office of 
Research and Evaluation and the National Association of Prosecutor 
Coordinators conducted a national survey of prosecutors on law school 
student loan debt and the associated issues. Researchers received 2,119 
responses from prosecutors all over the country, most of whom graduated 
from law school between the years 1998 and 2003 and had worked as 
prosecutors for an average of four years.
    Analysis of the survey results revealed that more than 50 percent 
of the responding chief prosecutors and supervisors had between one and 
five prosecutors leave their offices in 2005. This may seem like an 
insignificant number, however, it becomes quite significant when you 
learn that 64 percent of prosecutors' offices that responded to the 
survey were comprised of ten or fewer assistant prosecutors. The end 
result is that attrition was 50 percent or higher in the responding 
small offices.
    In addition, 53 percent of the chief prosecutors reported in the 
survey that law school student loan debt was a very significant factor 
in their ability to retain staff and 62 percent of the chief 
prosecutors reported that student loan debt is a very significant 
factor in their ability to recruit staff. Chief prosecutors reported on 
average that low salaries and student loan payments were the causes for 
nearly a third of the prosecutors who left their offices. Two-thirds of 
the responding prosecutors advised that law school student loan debt is 
an important consideration in deciding to become a career prosecutor. 
More than 55 percent of the respondents reported that they would 
continue prosecuting for 20 to 30 years if law schools loans were 
forgiven.
    Public defenders are subject to the same difficulties in retaining 
attorneys. With starting salaries of about $35,000, new defenders 
cannot afford to repay their student loans. As a result, over a three 
and a half year period, the Saint Louis, Missouri Public Defender's 
Office saw 36 attorneys exit their office that employs only 28 
defenders.
    These unfortunate retention figures signify that inexperienced 
attorneys are handling cases beyond their capabilities and training. 
There are numerous criminal cases that are particularly difficult 
because of the dynamics involved. To name just a few--child abuse, 
elder neglect, domestic violence, identity theft and public corruption. 
The stakes are simply too high to allow any attorney other than 
experienced prosecutors to handle these matters.
    A memo from an Assistant District Attorney (``ADA'') to a 
supervisor in Pennsylvania illustrates this very problem, stating:

        ``Nearly half of the ADAs in the Major Trials Unit and in the 
        Family Violence and Sexual Assault Unit were hired in 1995 or 
        after. In the Felony Waiver Unit, our most experienced ADA has 
        been in the unit for approximately 4 months, and we have 8 
        lawyers who have been in the office 15 months or less. For the 
        first time since I have been chief of the Felony Waiver Unit, 
        there is not one lawyer currently assigned here who is ready to 
        try a Major case (one will be ready in another month or so). 
        There is no question that the departure of a significant number 
        of lawyers with 3-5 years experience would have an adverse 
        impact on this office, especially since most of the ADA's in 
        this unit are 6 months or more away from being capable of 
        trying the complex and serious cases in the more advanced 
        units.''

    Beyond recruitment and retention difficulties caused by the high 
cost of attending law school and the low salaries paid to local 
prosecutors, chief prosecutors and supervisors cited other effects in 
their offices such as increased caseloads per prosecutor, increased 
costs for training, decreased morale, and increased risk of 
prosecutorial error.
    The questions then become ``How can society, in good conscience, 
ask prosecutors and public defenders to sacrifice so much for so little 
pay?'' How long should they be required to postpone purchasing a home, 
getting married, starting a family, or buying a car? In some instances 
prosecutors are sacrificing even more.
    Some may be unable to purchase safe housing. Some may be driving 
unsafe cars because they cannot afford repairs or replacements. Some 
may even be unable to pay for necessary medical and dental care. 
Falling behind in their loan payments due to inadequate salaries leads 
to accrued interest, making the task of paying the debt off even more 
daunting. Trying to pay off student loan debt may also leave many 
unable to pay for utilities, food, and clothing. In the end, there is 
simply no solution to the impending financial disaster except a move to 
the private sector.
    Following are just some of the comments from New York prosecutors 
made during a student loan survey conducted by the Office of the Queens 
County District Attorney's Office, Information Services (March 
2001),\3\ illustrating their dire financial situations:
---------------------------------------------------------------------------
    \3\ A Survey of Assistant District Attorney Student Loan 
Indebtedness in 16 New York State Counties, The Office of the Queens 
County District Attorney, Information Services, March 2001.

---------------------------------------------------------------------------
        <bullet>  ``My wife and I live paycheck to paycheck . . .''

        <bullet>  ``I can only afford to pay $400 a month ? this 
        payment does not cover the interest. Therefore my balance keeps 
        going up!''

        <bullet>  ``I currently have all of my loans in forbearance 
        because of an inability to pay due to inadequate earnings. 
        Forbearance will cause my total indebtedness to increase as 
        interest accrues.''

        <bullet>  ``I have had to obtain a waitressing job on the 
        weekends to supplement my income.''

        <bullet>  ``. . . I am forced to choose between paying rent or 
        paying off my loans. I cannot afford to live in an area where I 
        feel safe and pay off my loans at the same time.''

        <bullet>  ``I had to obtain part-time employment in an effort 
        to make sufficient money to remain an ADA.''

        <bullet>  ``Please make sure this bill is passed. I?m currently 
        living in poverty.''

        <bullet>  ``Nearly half of my take home pay goes towards my 
        loans.''0

        <bullet>  ``. . . I am treading water until I can make more 
        money.''
          a proven and sound loan repayment assistance program
    The ``John R. Justice Prosecutors and Defenders Incentive Act'' is 
modeled after a similar program currently used effectively by many 
federal agencies as a recruitment and retention tool. The program would 
allow the repayment of up to $10,000 of student loan debt per year for 
state and local prosecutors and public defenders with a limit of 
$60,000 imposed. Because the program requires that a recipient commit 
to employment for at least three years, the problems with attrition and 
inexperience will certainly be alleviated. As a career prosecutor and 
on behalf of the nation's prosecutors, I strongly believe that the 
``John R. Justice Prosecutors and Defenders Incentive Act'' is a wise 
and urgently needed investment in the integrity of the criminal justice 
system.
                               conclusion
    I deeply appreciate this opportunity to discuss these important 
issues with the Committee. I thank you for your time and attention, and 
I welcome any questions from the Committee.

TESTIMONY OF MARK EPLEY, MARK EPLEY, SENIOR COUNSEL, OFFICE OF 
   THE DEPUTY ATTORNEY GENERAL, UNITED STATES DEPARTMENT OF 
                    JUSTICE, WASHINGTON, DC

    Mr. Epley. Good afternoon, Mr. Chairman, Ranking Member 
Forbes, distinguished members of the panel. My name is Mark 
Epley. I work for the deputy attorney general of the United 
States Department of Justice, and I am glad for the opportunity 
to speak to you today about violent crime in America and what 
the department is doing to assist our State and local partners 
with the prevention and control of crime.
    Due in large part to the hard work of State and local law 
enforcement, in 2005, the crime rate remained near historic 
lows, according to National Crime Victimization Survey and the 
FBI's Uniform Crime Report. After rising to an alarming peak in 
the early to mid-1990's, violent crime in America has fallen 
precipitously ever since.
    Although in 2005, we do observe an increase in violent 
crime as to murder, robbery, to some extent aggravated 
assault--rape actually went down--it is important to note that 
the rate of crime measured in 2005 is the second-lowest ever 
recorded or reported by the UCR. The lowest recorded was in 
2004.
    When we look at the crime data, there is no obvious 
nationwide trend. Rather, what we observe is an increase in 
certain crimes in certain communities. In general, for example, 
while the United States experienced a 2.4 percent increase in 
the rate of homicide, in New England, that increase was 5.3 
percent. In the South, it was 0.8 percent. In the West, it was 
1.7 percent.
    In addition to regional variation, we also see that cities 
have experienced crime based on their size. Those cities that 
were a million persons or more barely registered a change at 
all. As Mr. Forbes mentioned, Los Angeles and New York saw a 
decrease. Small cites, those 10,000 to 25,000, saw a decrease. 
But those cities 100,000 to 250,000 saw a measurable increase 
in violent crime.
    What is also not obvious when we look at the data is what 
the cause or causes of the regional or the localized increases 
on crime that are observed. To better understand the situation, 
the Department of Justice visited a number of communities 
across the country, those both experiencing an increase in 
crime and those that have seen a decrease, and from these 
meetings, the department sought to learn from local leaders 
what works and what their law enforcement challenges are.
    One consistent theme we heard is the importance of Federal-
local partnership. A specific example that arose was Project 
Safe Neighborhoods. Through Project Safe Neighborhoods, local 
law enforcement and prosecutors are able to refer gun crimes to 
the Federal system for prosecution, and through this 
partnership, we have doubled the number of gun crime 
prosecutions over the last 6 years when compared to the 
preceding 6 years.
    Another form of partnership in action is law enforcement 
task force activity. Some examples of those led by Federal law 
enforcement include the FBI's Safe Streets Task Forces, the 
ATF's Violent Crime Impact Teams and the U.S. Marshals' 
Regional Fugitive Apprehension Task Forces.
    Whether partnerships through prosecution or operations, we 
want to continue to find ways to shore up our relationship with 
State and local law enforcement. But we appreciate that 
sometimes cooperation on their part takes resources.
    The President's fiscal year 2008 budget request reflects 
that concern. It seeks $200 million for the Violent Crime 
Reduction Partnership Initiative. This initiative will make 
money available to State and local law enforcement task forces 
to address violent crime in those communities that are having a 
challenging time, and they are able to fashion a law 
enforcement solution that is well suited to the problem that 
they see.
    In addition, the department has begun to consolidate 
certain grant programs in order to ensure effectiveness. The 
Byrne Public Safety and Protection Program in the President's 
fiscal year 2008 budget will consolidate the department's most 
successful State and local law enforcement assistance programs 
into a single, flexible, competitive grant program. This new 
approach will help State, local, tribal governments develop 
programs appropriate to the particular needs of their 
jurisdictions.
    And training will continue to be an important part of 
helping our State and local partners grow capacity in the face 
of emerging crime trends.
    The Department of Justice is committed to helping our State 
and local partners prevent and control crime, but we must 
understand that crime is not evenly distributed across the 
United States. Rather, some regions, some counties, cities and 
towns experience more crime than others. One-size-fits-all 
solutions are not well suited to the crime challenges as we 
observe them in the field.
    By better understanding emerging crime trends and the 
nature of crime in the United States, we can more effectively 
partner and more effectively target resources to where they are 
most needed and we are committed to doing that.
    Thank you.
    [The prepared statement of Mr. Epley follows:]
               Prepared Statement of Mark Epley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Scott. Thank you.
    Mr. Monaghan?

            TESTIMONY OF JOHN MONAGHAN, CONSULTANT, 
             NEW YORK CITY LAW DEPARTMENT, NEW YORK

    Mr. Monaghan. Chairman Scott, Ranking Member Forbes, 
Members of the Subcommittee, thank you for inviting me here 
today to testify.
    As has been mentioned, the FBI crime reports show a 3.7 
percent increase in violent crime. In contrast, the city of New 
York has a 3.1 percent decline in violent crime. In fact, 
overall crime is down in New York for that time frame 7 
percent.
    When you realize that the NYPD is the same size roughly as 
the United States Coast Guard and we police a city of over 8 
million people, yet have kept crime down under the national 
average, we need to look at the management innovations as well 
as technological ones that have helped us do that.
    But, first, before we examine those innovations, I would 
like to put to rest the notion that there is some overarching 
socioeconomic shift in society that has caused this sustained 
decrease in crime. It is policing. It is better policing.
    You know, we would be hard-pressed 30 years ago to find a 
college or an institution that offered criminal justice 
degrees. Today, you could hardly find one that does not. The 
entire profession itself has really taken steps forward in 
recent years. You know, just the criminal justice program at 
Harvard's Kennedy School is only 25 years old.
    In order to sustain this particular innovation in policing, 
we must continue to respect the profession by duly crediting it 
with the overall reduction in crime nationwide.
    So why is New York ahead of the curve? CompStat, in a word. 
But there is a lot more to it.
    Back in 1988 was the first time a police department in New 
York City had educational mandates for promotion. We needed 64 
credits to become a sergeant, 96 to become a lieutenant, and a 
bachelor's degree to become an executive officer and the rank 
of captain.
    This laid the groundwork and filled the middle ranks with 
educated people. For the mid-1990's, there was actually a 
management revolution within the NYPD. Never before, mid-level 
managers promoted to the top of the agency. We had one-star 
chiefs become four-star chiefs overnight. It energized a more 
educated department, and, you know, CompStat was really just 
the first manifestation of that revolution.
    From that time forward now, CompStat and all the 
innovations at NYPD have been managed. We have one-star chiefs 
now with less than 20 years on the job. I mean, that is unheard 
of in policing. The entire, not just the demographics of the 
NYPD have changed dramatically, but the attitude of the entire 
agency. It has become a mantra in government in New York lately 
that we are going to do more with less, and they really have 
been in New York. We have less cops now than we had in the 
past.
    So let's talk about CompStat. It really is the greatest 
innovation in policing in our generation. It has run a course, 
it has been very successful, but it does have limitations, and 
New York does recognize that.
    Recently, they started the Real Time Crime Center in order 
to combat crime while it is occurring.
    I will say less about CompStat before the red light goes 
off, okay.
    Before the crime center, cops in the field would get 
information from witnesses and victims. They would have to go 
back to the station-house, run the information through whatever 
database they felt was pertinent to the investigation. This 
could take days or weeks. It now happens in moments.
    In policing, the term rapid deployment had always meant 
lights and sirens. But now with the crime center, we rapidly 
deploy information to the field. It is staffed with about two 
dozen investigators, and it processes in puts from the field 
and runs them through billions of records.
    Just a few months after the center opened, Bronx detectives 
responded to the abduction of a 4-year-old child that was 
perpetrated by a babysitter who had been fired. Using only the 
information available, which was a State identification number, 
the Real Time Crime Center produced seven names with seven 
different addresses, three dates of birth and six Social 
Security numbers, for that one ID number.
    Can you imagine how long it would take for human detectives 
to plow through that information? The Real Time Crime Center 
did it in moments. The common denominator was found, the child 
was recovered and the perpetrator arrested in a timely fashion.
    The Real Time Crime Center was an $11 million investment. 
It was funded mostly by the mayor's executive budget, with $1.8 
million coming from Federal funds and $1.3 million coming from 
the New York Police Foundation. Most of America's 10 largest 
cities have supporting, non-profit foundations that provide 
funding not found in their city budgets.
    But again, with the second largest police department in the 
country being one-tenth the size of the NYPD, it is unfair to 
compare resources really. The New York Police Foundation has 
funded over 400 programs to the tune of $70 million since its 
inception in 1971.
    Another innovation in policing that did not cost local 
government any funding at all had to do with some high-profile 
homicides that we had in New York related to some of our 
trendier nightclubs in past months. You may have heard of them. 
Since then, the New York City Council has enacted a law that 
mandates video surveillance in such cabarets as a licensing 
requirement, and, of course, the police have access to those 
videos if we need them for investigative purposes.
    I am over. Okay. You know what? It is the people. It is the 
people that man these machines. Otherwise, it is just an 
electronic tiger.
    Thank you.
    [The prepared statement of Mr. Monaghan follows:]
                  Prepared Statement of John Monaghan
    Chairman Scott, Ranking Member Forbes, Members of the Subcommittee, 
thank you for inviting me here to testify today.
    As I'm sure we're all aware the FBI crime reports for the first 
half of 2006 show a nationwide increase in violent crime of 3.7 
percent. In contrast, the City of New York has recorded a 3.1 percent 
decline in violent crime for that same period. In fact New York City's 
overall crime rate, which includes property crimes along with violent 
crimes, has declined 7.2% in that period.
    When you realize that the New York City Police Department is 
roughly the same size as the United States Coast Guard and they police 
a city of over eight million and have kept crime down under the 
national average making New York the safest big city in America, you 
have to look at their innovations in management and technology.
    But first, before we examine those innovations, I'd like to put to 
rest the notion that some overarching socioeconomic shift is 
responsible for this sustained decrease in crime. It's better policing. 
In his new book, ``The Great American Crime Decline,'' Franklin Zimring 
at UC Berkeley's School of Law attests to the fact that better policing 
is the real explanation for New York City's success. In fact if there's 
any demographic-like shift in our society that may account, in part, 
for the overall brighter picture in crime trends nationwide, it's the 
evolution of the profession of policing itself. Thirty or more years 
ago, there were not many colleges or universities that offered classes 
or degrees in Police Science or Criminal Justice. Today, we'd be hard 
pressed to find an educational institution that doesn't offer such 
programs. Even the Criminal Justice Program at Harvard's Kennedy School 
is only 25 years old.
    So, why is New York ahead of the curve? We all know that New York 
City was the birthplace of CompStat but that was just the beginning. 
CompStat was merely the first recognizable product of an internal 
management revolution that took place in the NYPD in the mid-nineties. 
Never before in the history of that department had mid-level managers 
been elevated directly to top management positions. Educational 
mandates were put in place for promotion to Sergeant, Lieutenant and 
Captain. In fact, the man who designed the CompStat system, the late 
Jack Maple, was only a Lieutenant when he was promoted directly to 
Deputy Commissioner to implement the CompStat system citywide. In the 
wake of those changes the attitude and demographics of the entire 
police department changed. The CompStat era was ushered in by a 
younger, more educated generation. This all points to the first 
management innovation that underlies the NYPD's unprecedented success; 
a better-educated and highly motivated workforce.
    In order to perpetuate this particular innovation, we must continue 
to respect the profession by duly crediting it with the overall 
reduction in crime nationwide.
    CompStat is the greatest innovation in policing in our generation. 
One issue you don't normally hear associated with CompStat however is 
funding. It's a relatively inexpensive idea. The CompStat process has 
evolved however and has found its limitations. It does achieve 
accountability of command level managers, directs deployment of 
resources with pinpoint accuracy and has become a clearinghouse for 
effective tactics. However, crime statistics by their nature tell of 
crimes that occurred in the past. In an effort to prevent crime before 
it occurs or address it while it's occurring, the New York City Police 
Department has created the Real Time Crime Center. This data warehouse 
combines cutting-edge technology with good old-fashioned police work.
    Before the Crime Center opened, officers in the field used to 
record facts, bring them back to the station house and manually run 
them through whichever databases their experience told them were 
pertinent. This haphazard process that took days or even weeks, is now 
streamlined and can happen in moments.
    In policing, the term rapid deployment has always meant lights and 
sirens. The Real Time Crime Center now rapidly deploys information at 
blinding speed. Staffed with about two dozen investigators the center 
processes inputs from the field and runs them through billions of 
records. Not only does it access information from 120 million New York 
City criminal complaints, arrests, and 911 calls, it immediately 
accesses five million parole and probation files from the State and 
more than 30 million national crime records. The reconciliation engine 
that runs the data is an emerging, sophisticated technology that 
understands the meaning and relationship of terms used in policing and 
so is not limited to the commands input by the user. The system 
delivers information in context.
    A few months after the center opened, Bronx detectives responded to 
the abduction of a four-year-old child perpetrated by a former 
babysitter who had been fired. Using the only information available, a 
New York State Identification number, the RTCC produced seven names 
with seven different addresses, three dates of birth and six social 
security numbers. Each one of these pieces of information produced 
additional names, addresses and some phone numbers. The RTCC quickly 
found the common denominator and the child was recovered in a timely 
fashion and the perpetrator arrested.
    That same month detectives responding to a gunpoint robbery 
received only a generic clothing description along with the description 
of a tattoo on the gunman's neck. Using only the description of the 
tattoo, investigators in the RTCC identified a man with a similar 
tattoo who had been arrested numerous times in two different 
jurisdictions within New York State. The detectives received a 
photograph of the suspected gunman who was then positively identified 
by the victim through a photo array. This man's criminal records showed 
several addresses in two different boroughs within New York City. Good 
old-fashioned detective work combined with this new technology put that 
gunman in jail within a week.
    The Real Time Crime Center was an $11 million dollar investment 
funded mostly by the Mayor's Executive Budget with $1.8 million coming 
from federal funds and $1.3 million coming from the New York Police 
Foundation, an independent, non-profit organization. Most of America's 
ten largest cities have supporting, non-profit foundations that enhance 
their effectiveness by providing resources not covered in their city 
budgets. But again, with the second largest police department in the 
country being about one-tenth the size of the NYPD, it's difficult to 
compare resources. The New York Police Foundation, founded in 1971 has 
funded over 400 programs to the tune of $70 million dollars.
    Another innovation in policing New York City not funded by the 
government has to do with a recent rash of high-profile homicides 
related to some of the city's trendier nightclubs. The New York City 
Council just enacted a new law requiring nightclubs operating under 
certain conditions to install video surveillance equipment as a 
licensing requirement.
    The list of technological advances being applied to policing in New 
York City goes on and on. From license plate scanning cameras deployed 
in radio cars to allowing 911 callers to transmit photos taken with 
their cell phones, policing in New York is keeping pace with technology 
and streamlining its management style with every new innovation.
    All this technology however is just an electronic tiger without a 
dedicated workforce behind it. It has become a mantra of late in New 
York City that the government is being called upon `to do more with 
less.'
    The dedicated men and women in law enforcement in New York City 
have answered that call. I thank you again for the opportunity to 
testify here today and I would be happy to answer any questions.

    Mr. Scott. Thank you, and I thank you for your testimony.
    Ms. Harris, I cut you off before you got to say much about 
the loan program.
    Ms. Harris. Basically, what we are looking at as State and 
local prosecutors is that we handle approximately 95 percent of 
all criminal cases in the country, and we are having a 
difficult time, frankly, recruiting and retaining eligible and 
qualified and really, frankly, the best and the brightest 
attorneys.
    It is simply because we cannot pay them enough, and we 
cannot pay them enough so that they can sustain a quality of 
life where they can actually afford to rent an apartment and 
maybe get married and have children and buy a house one day.
    We are losing lawyers, and I believe that the John R. 
Justice Prosecutors and Defenders Incentive Act will help us 
attract and retain these great lawyers and will help public 
defenders around the country do the same. The National DA's 
Association, who I represent on this bill, believes that it is 
urgent, in fact, that it is passed.
    Mr. Scott. How much debt do the lawyers show up with?
    Ms. Harris. On average, we are showing that they have 
between $50,000 and $80,000 of debt.
    Mr. Scott. Do you know what the monthly payments are on 
those stats?
    Ms. Harris. I do not have that information offhand, no.
    Mr. Scott. But if they have that kind of debt to start off 
with, then the lowest salaries become problematic.
    Ms. Harris. That is correct. And the average salary that we 
are showing is $44,000 a year for prosecutors in this country 
versus, for example, in private firms in Los Angeles, they are 
starting their attorneys at $160,000 a year.
    Mr. Scott. Thank you.
    Now, on the witness intimidation, we have laws against 
witness intimidation. Why are they insufficient?
    Ms. Harris. Well, we have laws against murder, and those 
are not sufficient. The reality is that we have people who have 
learned that they can actually benefit from threatening 
witnesses.
    There are the circumstances in the cases that all of these 
communities will know about when witnesses have been killed, 
and they will tell that story over and over again as not only 
justification, but as the reason why they will be reluctant or 
uncooperative with law enforcement in terms of testifying in a 
murder case.
    Mr. Scott. And if the criminal laws are insufficient, then 
we need to protect. How much does it cost to protect a witness 
from this kind of intimidation?
    Ms. Harris. What we do in San Francisco, which is what I 
believe is being done around the country, is that we relocate 
witnesses. So, once law enforcement, once the police officer 
and the homicide detective become aware of the existence of a 
witness, we talk with them. We find out and do an assessment in 
terms of their threat situation and their safety, and it is a 
voluntary program, and they will agree that it is best that 
they leave the dangerous place and be relocated to a safe place 
far away from their original home.
    Often, we relocate witnesses with their families. Many of 
our witnesses have young children, and we do not want to have 
the situation where they are removed from those children for 
what could be 12 months or 18 months pending the prosecution of 
the case.
    Mr. Scott. Now has the witness protection been successful?
    Ms. Harris. It is successful when the witness cooperates, 
and that means when the witness who is there voluntarily stays 
in a safe place, which is why this legislation is significant, 
because it will give us the ability to put more resources into 
making that witness feel comfortable in the new place, become 
situated in the new place, and monitored and supported so that 
they will not go back to the dangerous place.
    Many of the witnesses in these cases have never been 
outside of the 10-square-block radius of the place where the 
crime occurred and the place where they grew up, and to then 
relocate them to a safe suburb, in many cases, is scarier for 
them than being in a high violence community. So what we have 
to do is we have to recognize that they have to be 
transitioned.
    Chairman, you could imagine if I said to you that, ``You 
have now witnessed a crime, and I am going to relocate you 
tomorrow and take you to the middle of''--we do not have Kansas 
represented here--``Kansas, and you cannot call your old 
friends, and you are going to have to sit there for 12 months, 
18 months while we prosecute that case''--it is more than just 
relocating them. We need to support them.
    Mr. Scott. Thank you.
    Mr. Epley, you have indicated that you have doubled the 
number of gun prosecutions. Is that double the number of 
Federal prosecutions or double the number overall?
    Mr. Epley. Double the number of Federal gun prosecutions.
    Mr. Scott. Okay. You indicated there was no national trend, 
but that trends are going different places. Have you noticed 
any trends within those trends? What were they doing in the 
areas where this crime was going down? What were they not doing 
where the crime was going up? Did you do any studies along 
those lines?
    Mr. Epley. Mr. Chairman, the department visited, in 
addition to talk to social scientists and others, 
criminologists and so on, 18 cities across the country, as I 
mentioned, some of which were observing increases in violent 
crime and others that were seeing decreases, and the experience 
was almost as varied as the number of cities visited.
    In some communities, we saw an increase in aggravated 
assaults, but a decrease in homicide, so a number of difficult-
to-explain combinations of violent crime statistics coming 
back. Part of the explanation that statisticians that we 
consulted with and that worked with the department suggested is 
that it is difficult to measure changes over a single-year 
period.
    Mr. Scott. Thank you.
    I noticed 1 year they noticed a precipitous decline in 
murders in the Richmond, Virginia, area, and they, after close 
study, determined that it was because the medical college of 
Virginia had a new trauma unit--the same number of shootings, 
just fewer people were dying.
    Mr. Forbes?
    Mr. Forbes. Thank you, Mr. Chairman.
    Let me again just thank all of you for taking time to be 
here. I appreciate your expertise. I wish I could sit down with 
each of you for a period of time and pick your brains. 
Unfortunately, in the setting we get, it is impossible. There 
are six of you here; I have 5 minutes. So I have to be curt and 
short, you know, as much as I can.
    Mr. Scott. We will have another round.
    Mr. Forbes. Okay. The Chairman said we might be able to 
have another round.
    Ms. Robinson, two questions about this violence increase 
that you talked about. One, have you charted out the crime-
prone age population for the last 15 years and have you looked 
at that as to how that correlates with any of the increases in 
crime that you were seeing?
    Ms. Robinson. Certainly, my colleagues at Penn have looked 
at that.
    Mr. Forbes. Have you looked at that?
    Ms. Robinson. I am not personally a statistician, but my 
colleagues who are have looked at that, and it would definitely 
be the 18-to 25-year-old range.
    Mr. Forbes. Well, again, forgive me for being short. I 
would normally like to say please take all the time you want.
    Ms. Robinson. Of course.
    Mr. Forbes. But one of the things that we have tracked over 
the years is we tried to watch when that crime age population 
bounces up and down. Sometimes those trends go right with it.
    My question that I would like to get at--and get back with 
us if you can or talk to some of your friends about it--is 
whether or not there has been any tick up in the crime-prone 
age population in the last few years or whether it has been 
decreased. Because sometimes that gives us a snapshot of crime.
    The other thing is testimony that we have had before this 
Subcommittee before has almost been across the board saying 
that the increase in violent crime has been related to gang 
activity, an increase in gang activity.
    The mayor talked about gang activity, and all of Ms. 
Harris's testimony, which I have read--all of your analogies 
and examples were gang activity.
    Would you agree with that, that one of the big increases 
that we have has been in relationship to gang activity across 
the country?
    Ms. Robinson. I would agree with Mark Epley that it 
actually varies greatly from jurisdiction to jurisdiction. In 
some jurisdictions, yes, it is related to gangs, but, in many 
jurisdictions, it is not.
    For example, in Philadelphia, which I am very familiar 
with, it is not related to gangs. It is related to very young 
teenagers or mid-teenagers, and it is frequently youth involved 
in revenge-type violence.
    Mr. Forbes. And let me talk about revenge-type violence.
    I want to get to Ms. Harris before my time runs out.
    Chief, are you here today in your capacity as individually 
or on behalf of chiefs across the country?
    Mr. Monaghan. I am here today for IACP, representing the 
chiefs across the country.
    Mr. Forbes. Have you looked, then, at the areas where you 
have seen this uptick in violent crime, and can you tell me the 
situations on any of those areas where there has been this 
uptick in crime, has there been a decrease in the number of 
police officers on the streets?
    I am talking about just money coming from Federal 
Government. Has there been a decrease in police officers?
    Chief Mosca. I cannot make that correlation exactly, but I 
would like to say that crime necessarily is not from gangs. 
Most of the departments in this country are smaller 
departments, departments of under 25 people. And while we talk 
about effective law enforcement programs from some of the 
larger cities, and my colleague talked about CrimeStat, some of 
his New York colleagues have gone across the country, used 
CrimeStat, and they have really displaced crime to a number of 
the smaller, less well-equipped communities to deal with. So we 
have seen an increase in violent and major crime, while some of 
those urban areas may have seen a decrease.
    Mr. Forbes. I think his testimony is that it has been smart 
policing and effective policing that has been very effective in 
New York, not necessarily always in the quantity, but in how 
they do it.
    Ms. Harris, my time is almost out. I want to, first of all, 
brag about you. As I look at your bio, since you have been in, 
there has been a 26 percent increase in felony trial conviction 
rates, 40 percent increase in the number of violent offenders 
sent to prison, all of which I compliment you on--also, double 
the trial conviction rate for felonies.
    The reason I say that is because in your testimony, you 
also say, ``The witness relocation protection programs are law 
enforcement's primary tool to respond to witness intimidate.'' 
As I mentioned at the outset, when we were in New Orleans, we 
heard a whole different story, not that witness relocation was 
not important.
    But I would ask you, first of all, to think about and give 
me when I get back a few minutes from now, how many people, if 
we could give you a blank check, would you relocate in a given 
year if you had that opportunity?
    And then I come back to what they told us in New Orleans. 
They said the thing that was problematic for them were two 
situations. One is that because they had such a low conviction 
rate and because the judges were not doing anything to these 
criminals, they were going back out on the street.
    We had a minister that came in from one of the local 
churches, Mr. Rafael, and he said, ``How can I get my community 
to come in and testify, how can I get my police officers to 
come in and arrest these people and testify, when they know 
that those criminals are going to be back on the street before 
they get home from the courthouse?''
    But the second thing he talked about was something that I 
think really is important in our country, and I do not know how 
we get our hands around it, but he said one of the big things 
in witnesses was a culture. He said he did not know how to 
break through it, but he said he was trying. He said if he were 
shot in his neighborhood by a White policeman, he said 
witnesses would come out of the woodwork. He said, but if he 
was shot by somebody in the community to him, he said they 
could not get witnesses to come out.
    And a lot of the people in that neighborhood do not want to 
relocate somewhere else, you know, but they are not coming 
forward and testifying because they do not see anything 
happening to the people they are testifying against.
    And so, if I get a chance in just a minute when I come 
back--oh, do you mind? Okay.
    The question I would ask for you is this: Have you had any 
impact based on the conviction rate that you have increased, in 
terms of people being more willing then to come in and testify 
because you have been very successful in putting people behind 
bars?
    Ms. Harris. It is a great question, and I think it begs the 
point that we have to look at these issues not through a plate-
glass window but through a prism, because there are many 
aspects that really need to be addressed all at once.
    I think the COPS legislation, for example, addresses some 
of the point that you are raising, which is underlying the 
intimidation and reluctance issue, in addition to fear, is also 
this trust of law enforcement by many of these communities, and 
so we have to, as law enforcement, also do a better job, 
frankly, in being present in those communities in a way that 
they trust us and that they will report crime believing they 
will be treated with dignity and respect and due process.
    I think it is also a matter of showing the community that 
there are consequences when they do come forward, which means 
conviction, and that is a function also of having the local 
press and the communications chains get that information to 
communities that consequences are occurring.
    It is also the issue of rallying the natural partners of 
law enforcement in the community. For example, in San 
Francisco, when that witness was killed, I rallied our faith-
based community, brought them together in an interfaith 
community, and basically said, ``Listen, I need your help. In 
the church or the synagogue or wherever it is you pray, I need 
you to talk with your congregation about the fact that we need 
to support these folks who come forward and participate with 
law enforcement,'' and we have to do it from the community as 
well as from law enforcement.
    So I think there are many ways that we can address this, 
but they will have to be coordinated and worked through a 
collaborative perspective, understanding that it is not just 
one area that is the problem.
    Mr. Forbes. Thank you.
    Mr. Scott. Thank you.
    Mr. Weiner?
    Mr. Weiner. Thank you, Mr. Chairman, and I thank you for 
permitting the gentleman from Virginia to go a little bit 
longer. I would not have any objection if we wanted to do a 
couple more rounds because these are important witnesses who 
have waited for a while.
    Mr. Epley, I am curious about something you did continually 
through your testimony. You kept referring to 2005. Are you 
aware that 2006 FBI data is available?
    Mr. Epley. Congressman, the preliminary UCR data for 2006 
that covers the period January to June is available, yes.
    Mr. Weiner. Why don't you tell us a little bit about that? 
Does that show violent crime up?
    Mr. Epley. Well, as you know, the preliminary data measures 
the absolute number of violent crimes reported by those 
agencies reporting.
    Mr. Weiner. I understand. The data you referred to in 2005 
was that same data set, was it not, just for a different year?
    Mr. Epley. No, the 2005 that I referred to refers to all 
police departments that report.
    Mr. Weiner. Well, actually, let me just say the FBI data, 
the agency that you are here representing, shows that violent 
crime was up in 2006, and I do not want the impression to be 
left that there was some ambiguity because you referred to data 
from 2005.
    There is an organization, as you know, I am sure you are 
familiar with, that did a study of the change in crime, violent 
crime, in America for the period 2005 and 2006. I am going to 
tell you what they found in the 56 reporting jurisdictions. You 
are familiar with the organization, I am sure. It is the Police 
Executive Research Forum, a very respected, bipartisan, non-
partisan organization.
    Mr. Epley. Yes, I am.
    Mr. Weiner. This is what they reported as going on between 
2005 and 2006. Twenty-eight out of 56 departments experienced 
an increase in homicide. Forty-two out of 56 departments, 75 
percent, saw an increase in robbery. Aggravated assault with a 
firearm is up in 45 percent of the different precincts. In the 
number of police departments with an increase in violent crime 
overall, homicide was up in 71 percent in the years 2004 and 
2006.
    Mr. Mayor, does that reflect your experience that crime is 
creeping back up?
    Mayor Palmer. Absolutely, and it is something that all of 
us are involved with.
    It is not a cookie-cutter approach. Different cities have 
different things that are going on. Like the professor said, in 
Philadelphia, I do not even know how high the homicide rate 
would be if they had actual gangs there because we found that 
you have more homicides when you have gangs involved, and so 
that is something that is very troubling.
    As well, something was mentioned about the aging. There is 
no cookie-cutter approach to age either. We have done surveys, 
and it depends on where a person is when they are incarcerated. 
In Newark, for example, when they surveyed individuals who were 
getting shot, who were getting murdered, they found that these 
individuals were older.
    They were older because when they did more research, these 
individuals had just gotten out of jail after being in jail 5 
of 6 years. They were older. They have come back to the 
neighborhoods where they once ruled and see younger people in 
their spot, and then you have those kinds of things.
    Mr. Weiner. Well, let me just say, you know, one of the 
ways that we have had arguments about the efficacy of the COPS 
program--and this goes back to testimony in this Committee in 
2004--was people throw up the dust and say, ``There are so many 
variables, we cannot possibly help with this problem.''
    So a couple of organizations have actually looked at this 
exact question, which is what contributes to the reduction in 
crime that we have seen, and the GAO was one of them. The GAO 
came back with a report that said that the COPS program 
contributed to about 7 percent of the 32 percent decline in 
violent crime from 1993 to 2000.
    The University of Nebraska did a study that went into even 
more detail, and here is what they found. They found in cities 
with populations greater than 10,000, an increase of $1 of 
hiring grants, what we are talking about on the COPS program--
the hiring grants, Mr. Epley, that your administration has 
eliminated, made zero--per resident contributes to a 
corresponding decline of 11 violent crimes and 28 property 
crimes per 100,000 residents.
    What they essentially did is they went back and, as an 
academic institution, they took out variables and tried to 
figure out where you put money for hiring, whether it 
contributes to a reduction in crime. One of the things that is 
good about the COPS program is that the COPS program has been 
about as democratic--with a small D--program as you can 
imagine, if you look at the distribution of police around 
Democratic areas, Republican places.
    Oklahoma got 10,054 cops under the COPS program. Let me 
show you what they got last year under the Bush 
administration's hiring proposal. This is an easier one to 
read. You do not need to look that hard for Oklahoma. It is 
right here, O as in Oklahoma.
    I would ask: Are there any members of the panel, any of 
you--and you can answer with a show of hands--that believe the 
residents of Oklahoma are safer because they have 1,000 fewer 
cops from the Federal Government on the payroll? Does anyone 
think that they are safer because of that?
    Mr. Epley, do you want to take a stab at that? Do you think 
they are safer?
    Mr. Epley. Congressman, the department has not thrown up 
its hands in the face of the disparate effect that we are 
observing of crime across the country.
    Mr. Weiner. Disparate effect? Is that your way of 
describing a violent crime rate that has risen about 4 percent 
in 2006? Is that the disparate effect you are talking about?
    Mr. Epley. Congressman, the 2006 data is not a crime rate. 
The 2005 data that I referred to is a crime rate. What it does 
is it adjusts for population.
    Mr. Weiner. Mr. Epley, let me ask you another question. One 
of the things that you referred to was how you have taken block 
grant programs, and I think you said to make them more 
efficient, you have combined them into one.
    When you take the aggregate amount of those grant programs, 
what was the amount and the combined efficient grant amount 
that was in the last budget proposal that you suggested?
    Tell me what the amount was when you aggregate all the 
different ones and you make it more efficient and put it into 
one grant program. Can you tell me what the overall numbers 
were when you went from one method to another?
    Mr. Epley. I think that last year, the President's budget 
request for State and local law enforcement and criminal 
justice assistance was approximately $1.2 billion, and this 
year, fiscal year 2008, the number is about the same.
    Mr. Weiner. What I am asking you is not just the JAG 
program. I am saying when you combine Byrne, the Byrne 
discretionary, the Byrne formula, the criminal justice block 
grant--you say you have combined them into one block grant 
program--isn't it true that you reduced the overall amount by 
about 20 percent?
    Mr. Epley. The Byrne Public Safety and Protection program 
that I mentioned requested by the President's 2008 budget--what 
it actually does--combines some of the most successful programs 
the department's administered, for example, Weed and Seed.
    Mr. Weiner. Understood. I am saying it combines them, and I 
am asking you a mathematical question now.
    Mr. Epley. Right.
    Mr. Weiner. When you combined the various programs into one 
program, isn't it true that you reduced the overall pot of 
funding going to the agencies that these folks represent?
    Mr. Epley. I think in the aggregate, like I mentioned, the 
President's request in 2007 is just about the same as it is in 
2008.
    Mr. Weiner. Can I ask you one final question? And perhaps I 
will have a second round.
    You are here on behalf of the Administration. This bill has 
been out there kicking around for some years now. It was part 
of the reauthorization of your agency that was passed, I think, 
2 years ago in a bipartisan support.
    What is the Administration's position on the 
reauthorization of the COPS program and a reinvigoration of the 
COPS hiring component? Are you all for it or against it?
    Mr. Epley. Congressman, the department does not have formal 
views on this bill.
    Mr. Weiner. I see.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    The gentleman from North Carolina, former Chairman of the 
Subcommittee, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I apologize for my 
delay in arrival, Mr. Chairman. I had two other meetings I had 
to attend.
    I appreciate you all being here.
    Mr. Epley, is there a direct correlation between decreased 
funding of Federal law enforcement programs and the increase in 
violent crime in the first 6 months of last year?
    Mr. Epley. Congressman, when you look back over not just 
the last 6 months, but even the last 10 years, it is difficult 
to see a powerful correlation between Federal spending on 
police protection and the crime rate.
    When we look back over time, we see that in the years 1999 
and 2003, the Federal contribution to police protection 
amounted to about 4.5 percent of all money spent on police 
protection in America. Right now, that number is approximately 
2.5 percent, 2.3 percent. Over the same time, the same period 
of time, we saw the violent crime rate steadily going down.
    All I mean to suggest is that when you look at both the 
spending numbers, the Federal contribution to police protection 
and the crime rate, you do not see a powerful correlation. At 
the same time, Congressman, what we see is that State and local 
police protection spending has gone up over time every year for 
which we have collected that data, the most recent year being 
2004.
    Mr. Coble. Well, I am going to have to move along, if you 
could wrap up, because I have two other questions I want to put 
out.
    Mr. Epley. My only point being that State and localities 
have spent money on police protection to keep pace with the 
crime challenges they have faced in large measure.
    Mr. Coble. I thank you, sir.
    Mr. Mayor, let me ask you this question to extend that line 
of thought. If you know, are cities appropriating fewer dollars 
for law enforcement in expectation of Federal monies 
forthcoming?
    Mayor Palmer. No, sir. We cannot afford to do that. Our 
citizens need safety. We have to spend whatever we have to 
spend, stretching our budgets, taking monies from other places 
because we are not going to sacrifice the safety of our 
residents. So we have to spend what we have to spend.
    Mr. Coble. Okay. Thank you, sir.
    Professor, I agree with you that we need to be investing in 
evidence-based approaches that can actually help reduce crime 
and stop funding programs that simply do not work, even when 
they may have great popular appeal. Let me put a two-pronged 
question to you, Professor.
    How can the Federal Government help identify the programs 
that do, in fact, work, A; and B, does the COPS program 
currently assess the effectiveness of a program prior to 
issuing a grant, if you know?
    Ms. Robinson. Those are good questions.
    On the first, Congressman, Congress needs to be investing 
more money in evaluation of programs. Right now, the National 
Institute of Justice, which is the research arm of the Justice 
Department, has had a stagnant-level budget for 10 years. It 
spends about $12 million a year on research and evaluation. 
That is a drop in the bucket, as you know, in the Federal 
budget.
    That number needs to be increased, and my recommendation 
would be that it be a percentage off the top of OJP and COPS 
budgets, 1 percent, for example, which is something you could 
do in an authorization bill, to assess, evaluate the program.
    And in answer to your second question, back when the COPS 
program was established, when the COPS crime bill was passed in 
1994, the appropriators allowed the Justice Department to take 
a percentage informally off the top of the program to transfer 
to NIJ for that purpose.
    Once that informal arrangement passed, I do not think that 
the COPS program has had the ability to take money to do that 
kind of evaluation. I would strongly recommend amending your 
legislation to allow for that kind of evaluation.
    Mr. Coble. I thank you, Professor.
    Mr. Chairman, I yield back the balance of my time, Mr. 
Chairman, before the red light appeared. [Laughter.]
    Mr. Scott. Thank you, Mr. Coble. You are the only one.
    We are scheduled to have a markup immediately after this 
hearing, so, as people are gathering, we will have another 
round.
    I was going to ask Ms. Robinson what research there has 
been so far on the COPS program. You said there had not been 
enough, but has there been any research to show that it works?
    Ms. Robinson. The congressman over here had cited some of 
that. There has been some other research that has looked at the 
overall program, but there certainly have been a number of 
studies that have looked at specific innovations, for example 
problem-oriented policing.
    This morning, we had a symposium, in fact, that looked at a 
number of studies that have evaluated and found very promising 
and effective some of those programs. But it is very difficult 
to evaluate a large multi-program initiative of that kind, but, 
yes, there have been others.
    Mr. Scott. Mayor Palmer, you indicated that you get results 
from the COPS program. Can you talk about some of the results 
that you have seen?
    Mayor Palmer. Absolutely. Referring to the congressman's 
question, mayors are spending what they have to spend, but, 
quite frankly, it is taking away from other efforts that we are 
doing, and it certainly is hurting us.
    With additional police officers, even with the great 
technology and education that we are doing and with CompStat, 
we still see that when you have more police officers that are 
used in a targeted way, it helps reduce crime. It puts more 
eyes in your community, and it helps us also deal with domestic 
terrorism as well.
    Mr. Scott. Chief Mosca, when you hire police with the COPS 
money, there was an expectation that they would stay on board 
after they have been hired. What happens after they have been 
hired with Federal money? Do they kind of drift away after the 
money dries up?
    Chief Mosca. In our experience, our programs were extremely 
successful, and they actually sold themselves to the community, 
and they were continued. As you may know, Congressman, there 
was a percentage decrease in the amount of money yearly, and 
the municipality provided for those funds and we kept the 
police officers. We have extremely effective programs within 
our school system simply because of the COPS program.
    Our community would not have been in a position to fund an 
experimental program, if you would, for several years to see if 
it was going to work because that amount of money would have 
been extremely important because in a small community, just 
like the mayor's, they are dealing with highways and recreation 
and education and all the other things that a municipality has 
to deal with.
    So, while money may have been going up for law enforcement, 
it was money just to keep pace with what we needed because of 
salary increases and so forth. But our COPS program was fully 
kept by our community.
    If I may, one of the suggestions I might have, should this 
be reauthorized and personnel actually come out of it, is that 
Congress look at a mechanism to assist the community in keeping 
a police officer for more than the 3 years.
    In other words, you have funded it for 3 years. I would say 
you might look at 5 or 6 years with decreasing amounts of money 
because municipalities, faced with all their other problems, 
are reluctant to get into a new program knowing they are going 
to have to buy it in 3 years.
    So I think you could assist us, if you are able to do that, 
and that would be a great help to us.
    Mr. Scott. Thank you.
    Mr. Forbes?
    Mr. Forbes. Chief, and I do not ask you this to catch you 
in it, but I ask you seriously: Have you read the legislation 
on this bill that is before us today, just looked over it?
    Chief Mosca. I have not read it personally.
    Mr. Forbes. That is okay. Let me just tell you something. 
If there was a provision in there that said the money could be 
used for technology instead of hiring more police officers, 
would you be opposed to that?
    Chief Mosca. I would obviously take the technology. But I 
am saying, given a choice between technology and personnel, I 
would take the personnel. I would hope to be able to get both.
    Mr. Forbes. Okay. Well, everybody does even when we come in 
here.
    But, Mr. Monaghan, that is not what New York did. I mean, 
as I understand reading your testimony, they said it is not 
sheer numbers, it is not just education, but we need to be 
smarter about what we do and how we do it.
    How did you determine, how did you select the programs that 
you need? How did you come up with the things that have 
apparently worked? And the proof is in the pudding in New York 
compared to other cities. How did you come up with that mix?
    Mr. Monaghan. Well, one issue you do not normally hear 
associated with CompStat is funding. It is a relatively 
inexpensive idea. You used the word ``culture'' earlier. It is 
just an overall management idea.
    Where it came from was a basement office underneath the New 
York City subway system. Many years ago, there was a man named 
Jack Maple. It goes in line with the educational and the 
advancement changes in NYPD. Jack Maple was a lieutenant in a 
little office underneath the subway in the transit police.
    Years before, when Commissioner Bratton first came to New 
York, he came as the commissioner of the transit police 
department first, made a lot of changes there, left and then 
came back as the police commissioner for New York City.
    One thing he was very astute at, Mr. Bratton, was personnel 
assessment, and he had heard about this lieutenant down in this 
office, and he went down and saw him, and his office was 
covered with maps of the entire system, little pins, and this 
is where CompStat started. This man had the entire city mapped 
out and was concentrating on robberies crime by crime.
    When Commissioner Bratton came back the second time to be 
the commissioner for the entire city, he took that lieutenant 
and made him a deputy commissioner in order to implement 
CompStat citywide. So it all came from within.
    And, you know, I cannot speak for the people of Oklahoma, 
but we have less cops in New York now than we have had in 
recent years, and I was just told today if we had COPS funding 
the hiring of cops at least 5 years out--our head count is 
lower now than it had been----
    Mr. Forbes. Well, the reason I ask that question is because 
I do not think the chief could tell us today the magical number 
of cops you need to have in any particular locality in the 
country.
    And one of the things that I looked at in your testimony is 
you emphasized the importance of the database that you had and 
how important that database was. Can you tell us just very 
quickly about the database?
    Mr. Monaghan. Oh, yes. You know, I said to you could you 
imagine how long it would take two detectives to run down those 
leads, six dates of birth, six Social Security numbers off of 
one ID number. That would have taken a team of people a couple 
of weeks to run down.
    Mr. Forbes. So it would be better to have the database and 
maybe even fewer officers because we have had some chiefs that 
have come in here and said exactly the opposite of what the 
chief said. They said, ``We do not need to hire more police 
officers. What we need is more technology so that we can have a 
smarter operation and more effective policing than what we have 
today.'' Would you disagree with the request that they had made 
at that particular time?
    Mr. Monaghan. No, like you said--I was just talking to the 
department's legislative representative here today--we have 
less cops, we have more technology, and we are more efficient. 
We have a lower crime rate.
    Mr. Forbes. And you have a lower crime rate.
    Mr. Monaghan. Yes.
    Mr. Forbes. And yet, if that were the case, I could hold up 
a chart here today that would say, ``You have zero more cops, 
or you had less cops, actually''--I could put that chart up--
``but your crime rate is still falling because you have been 
smart at how you have used the policing of the police officers 
that you have.'' Fair statement?
    Mr. Monaghan. Right.
    Mr. Forbes. Good.
    Thank you, Mr. Chairman.
    Mr. Scott. The gentleman from New York?
    Mr. Weiner. Thank you.
    There has been evidence today that the gentleman from 
Virginia has not read the bill. Technology is permitted under 
the COPS program only if it can be demonstrated to the COPS 
Office that buying that technology allows you to take a police 
officer----
    Mr. Forbes. Mr. Chairman? Mr. Chairman?
    Will the gentleman yield?
    Mr. Weiner. Certainly.
    Mr. Forbes. Can you tell me what statement that I made that 
suggested that I did not read the bill because you are prone 
sometimes to kind of make those statements and accusations 
against members?
    Mr. Weiner. Certainly, you suggested----
    Mr. Forbes. No, I asked a question as to whether or not----
    Mr. Weiner. The gentleman asked a question on my time, and 
now I am answering it.
    Mr. Scott. The record will reflect that my colleague from 
Virginia has read the bill, and we can proceed.
    Mr. Weiner. Certainly.
    The fact of the matter is, lest the record be left with the 
impression that technology or manpower is a choice, that is not 
the case. What the COPS program does is allow police 
departments to invest in technology that they can show to the 
COPS Office allows them to put an additional police officer out 
on the beat.
    That is part of the flexibility that is built into the bill 
at the request of my colleagues at the other side who said, 
``We wanted more flexibility.'' And it was a fair beef, it was 
a fair concern, that there is more to policing than just 
manpower.
    For example, if you can put a Sprint terminal in a police 
officer's car that allows them to do less time at their desk 
and more time out patrolling the street, we give them credit 
for hiring another police officer and we fund that under the 
COPS program. It is one of the most successful elements of the 
program. It is a very flexible bill. It is one of the things we 
did to improve the bill.
    And finally, I think the gentleman from North Carolina in 
the context of the question--and the gentleman from Virginia 
did something similar--implied that--and, frankly, the 
gentleman from the Administration did this, too--it is so 
mysterious. How did these crimes fall?
    Well, it is not mysterious to GAO, it is not mysterious to 
the University of Nebraska, it is not mysterious to the Urban 
Institute, it is not mysterious to Yale University, and it is 
not mysterious to the report done by the Police Executive 
Research Forum, nor is it mysterious to the dozens of 
organizations, including many in Virginia, who say the COPS 
program has worked. This has been studied and studied and 
studied and studied and studied.
    This notion that if you just toss up all the variables that 
go into the rise or reduction in crime, you can somehow then 
argue against us doing anything comes back to a fundamental 
binary misconception that some of my colleagues have. The real 
choice is: Does the Federal Government help with local law 
enforcement? That is the question.
    If you believe the answer is yes, like so many Americans 
believe, like so many police chiefs believe, then you support a 
program like the COPS program. In fact, the Administration, who 
testifies here today, and my colleagues who ran this 
institution and this country for so many years, they had a 
different argument. They said, ``What we are going to do is 
keep zeroing out programs, renaming them and reducing the 
aggregate amount.'' The final analysis is that COPS, in 1995, 
put $1,056,980,000 into hiring; in 2006, zero.
    Now if there is anyone in this room who believes that when 
you take out the Federal role of over $1 billion in hiring 
police officers and make it zero, you are safer, then I have to 
tell you we are even more detached from reality here in 
Washington than I thought. It is entirely intuitive to believe 
that you could hire a police officer but do not train him or do 
not have a court or do not have a prosecutor, it is not going 
to have as good an impact. But, undoubtedly, the number of 
police officers rising is a good thing. Every report that I 
just quoted says it.
    And I am a little bit concerned the final question might 
have been misunderstood. The CompStat program was very 
beneficial, but the fact of the matter is that people of the 
city of New York decided to tax themselves in the mid-1990's to 
hire additional police officers.
    There is a direct correlation between that and the crime 
coming down, and it is the ultimate in irony that the same 
people who beat their chest on the floor saying, ``We need more 
cops in Iraq to get this problem under control,'' now argue 
that you need fewer cops on the beat in Virginia, in Maryland, 
in New York, in Oregon, in California to do the same thing.
    The COPS program has been a success. That is why police 
departments throughout this country in tiny Republican towns, 
big urban areas, have said, ``Please, Congress, do not 
reauthorize this. Reverse the cuts the Bush administration has 
done, and get us back in the business,'' and to hear my 
colleagues state it, I can only assume they believe that law 
enforcement at the end of the day, anti-terrorism at the end of 
the day, everyone is on their own.
    Well, some of us believe that is not right. Some of us 
believe that Congress made an important step in 1994 when we 
said we are going to get off the sidelines and we are going to 
get into the game, and if any of you want a sense of deja vu, 
just take a look at the transcript of the floor debate in 1994 
when this was considered.
    The names are a little bit changed. It is the exact same 
stuff: ``You cannot believe what you read,'' ``The problem with 
crime is that we are not doing enough in the homes,'' et 
cetera, et cetera, and then the COPS program passed, crime went 
down, and that is where we are today trying to reauthorize that 
program.
    I yield back my time.
    Mr. Scott. I thank the gentleman.
    Does the gentlelady from Texas have questions? The 
gentlelady from Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Many times, one would say ditto, but there are too many 
important witnesses here for me to ignore your expertise. First 
of all, let me thank you for your presence here today.
    And let me thank the Chairman.
    There are multiple hearings and markups that are going on, 
but I took rollerskates to try and make it here today because I 
believe there are some important elements that need to be 
raised.
    First of all, let me immediately put a dash or a hammer on 
any issue of cost on any of these programs. For the record, let 
me acknowledge, though I do not advocate for it, there's $275 
million being spent in Iraq today per day. That comes out to 
about $11 million, Mayor, an hour. I do not know if you had $11 
million, how much you could do for your fine city.
    I come from Houston, Texas, where I had the opportunity to 
work with the father of community-oriented policing, then Chief 
Lee P. Brown, and I am gratified to have been one of his strong 
supporters for him to become Mayor Lee P. Brown. What an 
interesting time period that we lived in.
    We could document the measurement of crime going down, one, 
giving police officers a degree of flexibility, but, two, 
getting them to know the guys and gals on the block, the bad 
guys and the good guys. So you did not go into a neighborhood 
completely blind, you already knew where the bad guys were.
    For example, I was in my congressional district visiting an 
elderly person; a bunch of folk across the street, loud 
talking, phones going, profanity going, ``I will kill you.'' 
All of a sudden, they get in a car and speed off. I was looking 
to see them on the late night news. Community-oriented policing 
means that somebody knew what would be around or knew who those 
guys were.
    It is a disgrace what we have done to community-oriented 
policing and the COPS program in particular, and so let me 
focus my questions on the necessity of bringing back where we 
were before.
    My city is seeing an enormous increase in crime, and it is 
not the blame of the Katrina survivors. I make it a habit of 
stopping my law enforcement. I am a former member of the 
Houston city council, so I am used to talking to the men and 
women in blue or orange or whatever colors they are wearing, 
and I am not talking about orange incarcerated jail uniforms. 
We have a variety of colors in the State of Texas. But I asked 
them. There is a frustration. There is not enough. They do not 
have enough to be on the street. They are not on the beat.
    So, Mayor, let me ask this question. The bell is ringing. 
So let me ask you this question.
    And I want to welcome Reverend Daniels and Mike, and I will 
be with them in just a moment.
    Let me ask you the question on just, if you could just stay 
on this, Cops on the Beat. This latitude, this using of this 
money so that cities can get to the core of their crime problem 
by using more officers in a variety of ways, is that helpful 
and constructive in what we are dealing with today?
    Mayor Palmer. Absolutely. And mayors across the country 
want flexibility. We want to be able to say how we can use the 
money most effectively, whether it is in technology, whether it 
is putting more police officers on the streets, but it is 
definitely needed.
    And everything that your colleague from New York just said 
and others, it is just ditto to that as well. We need more 
resources, more police, and if we can make sure that we are 
trying to put soldiers and police in Iraq, I do not know why we 
cannot have it right here at home in the good old USA.
    Ms. Jackson Lee. And the diminishing dollars did not help 
you. The cuts were not helpful.
    Mayor Palmer. They were hurtful, and you have to take from 
other areas because you are going to have to do what you have 
to do to make your city safe. It cuts across the board, and you 
begin to take away from other vital services that also 
increased--poverty, which increases, drugs, crime--and it is a 
vicious cycle.
    Ms. Jackson Lee. And there is something about knowledge, if 
you know where the guys are, if you know where they are, if the 
cops have the relationship.
    Chief, would you quickly answer? Because I do want to get 
to the district attorney. I welcome her, and I am not ignoring 
others, but my time is moving quickly.
    You are from a small city, and the one thing I liked about 
Cops on the Beat--I was here starting in 1995. The past 
Administration had this idea--is small cities are included as 
well. Is it a vital part of your staffing issues?
    Chief Mosca. Thank God you asked that question, 
Congresswoman. Not to be lost in what the urban problems are 
and the successes of CrimeStat, in reference to the 
congressman's question, smarter policing does occur in small 
communities, and we have a CompStat. We know our communities. 
We have a department of 20-some-odd police officers. We know 
what our crime rate is. We know what the crime is. We meet on 
it. We react to it daily. It is no different than CrimeStat, 
but they are dealing with 8 million people; we are dealing with 
12,000.
    Ms. Jackson Lee. You can make a difference.
    Chief Mosca. And so it absolutely makes a difference. It 
allows us an opportunity to try a program that has been 
researched. We put it into play, and we can watch it be 
successful. If, God forbid, it is a failure, we end it.
    But those programs have all been successful. They have been 
well thought out and the majority of law enforcement agencies 
in this country, over 85 percent of them, are small 
communities, small departments.
    So you cannot get lost in your dialogue in discussing just 
urban major cities. You have to think about the vast majority 
of law enforcement throughout the country, which is community 
policemen, community policing oriented. It always has been. We 
just did not know it.
    Mr. Scott. The gentlelady's time has expired.
    The gentlelady from California?
    Ms. Jackson Lee. Thank you.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I decided to serve on this Subcommittee because I truly 
want to understand what can be done to reduce the crime in our 
cities and in our towns. We are not talking about gangs today, 
but the gang problem is an absolute serious problem all across 
this country, and the crimes are being committed mostly by 
these young people in our communities. So I am really 
interested in solutions, and I know that lock-them-up-and-
throw-the-key-away does not work, but I do not know what does 
work.
    So I am very pleased that we have our district attorney 
from California here today, District Attorney Kamala Harris, 
talking about community policing and community prosecution. I 
want to understand a little bit more about how it works.
    I know that you have been discussing this phenomenon of 
witnesses not coming forth and being called snitching and how 
prominent that has gotten according to some of your testimony 
here. They are wearing tee-shirts----
    Ms. Harris. That is correct.
    Ms. Waters [continuing]. Into courtrooms, and even mothers 
of some of the children who may have committed crimes are 
wearing tee-shirts to stop the snitching. That is really, 
really, really scary and off the hook.
    But I am glad that you are here. It is good to see you. And 
I am appreciative for the leadership that you are providing.
    Help me to understand a little bit about community 
prosecution and policing.
    Ms. Harris. Thank you, Congresswoman, and for your 
leadership in California.
    This issue is addressed in the COPS bill, which is that 
there should be support for the idea that prosecutors have the 
ability through engagement with the community and outreach to 
do the work of not only, again, encouraging witnesses to come 
forward, but having a presence in those communities to perhaps 
prevent crime from happening in the first place.
    So some of the work we are doing in San Francisco--and I 
know is being done throughout California--involves creating, 
for example, a DA liaison program. So I have lawyers in my 
office who actually have volunteered to be representatives to 
each of our police district stations and go out in the 
community and be known to be the representative for that area 
and to take information and attend community meetings. So that 
is some of the work we have done.
    Another effort that we have made is to work with community-
based organizations around, for example, domestic violence or 
child abuse, and encourage them. when there are cases happening 
in the courthouses, to attend and to be able to present and 
vocal and, in that way, feel connected to what is happening in 
our courts.
    We have also worked with community leadership around 
immediate response to crime when it happens. Often, when 
violent crime happens, everyone in the neighborhood is there or 
will turn out, and there is a lot of work that needs to be done 
not only in terms of investigation of the crime, but also in 
terms of de-escalation. Certainly, police officers make that 
attempt and do a good job, but if we are doing it with also 
partnership from prosecutors and community-based leaders, we 
find that we are being more effective.
    So that is some of the work that we have been doing that I 
believe is making a difference in terms of, again, being 
present in these communities. I often go out myself on Saturday 
mornings into various communities and hold what we call 
information fairs, and I invite the chief of police and others. 
We give in the community center information about the work that 
we can do not only protecting witnesses, but also giving 
services in terms of counseling and support and helping them in 
terms of other areas of their lives that are impacted by the 
crime that happens in their community.
    Ms. Waters. I was in the Tallahassee area just yesterday, 
and I was in two little cities--one is Quincy, and the other 
one is Havana--and I had someone trying to explain to me a 
program that they have. It is like intervention where a young 
person commits a crime, and I guess maybe it is a non-violent 
crime, I do not know, but they like give them a ticket of some 
kind, and then they have to report on an ongoing basis.
    It is not probation. The first time I guess this person 
interacts with the criminal justice system. They have something 
that they do to have them report back, and I think they have 
requirements that they have to meet, and this is designed to 
deter them from the criminal justice system, not give them a 
record. They do not get a record for that crime that they 
committed. So it is probably a non-violent crime.
    Have you heard of a program like that?
    Ms. Harris. We have something similar which we call 
community courts, and it is based on basically a village model, 
the belief that crime that occurs in communities that is non-
violent crime that happens to be crime that is a nuisance to 
that community can be handled often by the elders in that 
community, the people who are the leaders in that community.
    So we will refer cases to these community courts that are 
set up as basically a tribunal of leadership from the various 
neighborhoods, and they review the case, and then they mete out 
the sentence that is appropriate and consistent with the mores 
of that community.
    So, for example, we have a number of cases that involve 
small storeowners selling alcohol to minors, which, of course, 
creates a big problem for those communities, and so the 
sentence, if you will, may involve and include not only a fine, 
but also that that offender be involved in activities that 
involve the youth in that neighborhood.
    So that is some of the work that is happening, community 
courts.
    Ms. Waters. Thank you very much. It sounds good.
    Mr. Scott. Thank you. Thank you.
    And I would like to thank all of our witnesses for your 
testimony.
    Members who have additional questions may submit them in 
writing. We will forward them to you and hopefully get answers 
as promptly as you can to be made part of the record.
    Without objection, the hearing record will remain open for 
1 week for the submission of additional materials.
    We have a markup scheduled right now. We will adjourn to go 
vote and ask Members to come back promptly after the vote. It 
is on the hate crimes legislation that is scheduled for markup 
tomorrow, so we would like to mark it up in Subcommittee right 
after the last vote.
    So, without objection, the Committee now stands adjourned, 
and we will reconvene immediately after the last vote.
    [Whereupon, at 4:45 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Prepared Statement of the Honorable Robert C. ``Bobby'' Scott, a 
 Representative in Congress from the State of Virginia, and Chairman, 
        Subcommittee on Crime, Terrorism, and Homeland Security
    The Subcommittee will now come to order. I am pleased to welcome 
you today to this hearing before the Subcommittee on Crime, Terrorism 
and Homeland Security on H.R. 1700, the ``COPS Improvements Act of 
2007;'' H.R. 916, the ``John R. Justice Prosecutors and Defenders 
Incentive Act of 2007;'' and H.R. 933, the ``Witness Security and 
Protection Act of 2007.''
    The first of the three bills, HR 1700, the ``COPS Improvements Act 
of 2007,'' amends the Omnibus Crime Control and Safe Streets Act of 
1968 to expand the current authority of the Attorney General to make 
grants for public safety and community policing, or the ``COPS'' 
program.
    The COPS program was originally created in 1994, as part of the 
Violent Crime Control and Law Enforcement Act. Since its inception, the 
mission of the program has been to advance community policing in all 
jurisdictions across the U.S. The program achieves this objective by 
awarding grants to state, local and tribal law enforcement agencies, so 
they can hire and train law enforcement officers to participate in 
community policing; purchase and deploy new crime-fighting 
technologies; and develop and test new and innovative policing 
strategies.
    Since 1994, the program has awarded more than $11.4 billion to over 
13,000 law enforcement agencies across the U.S.; and at the end of 
fiscal year 2004, the program had been credited with funding more than 
118,000 community policing officers.
    The second of the three bills, H.R. 916, the ``John R. Justice 
Prosecutors and Defenders Incentive Act of 2007,'' also seeks to amend 
the Omnibus Crime Control and Safe Streets Act of 1968. But, in the 
case of this measure, the legislation specifically directs the Attorney 
General to assume the obligation to repay student loans of any 
individual who agrees to remain employed, for at least three years, as 
either: (1) a state or local criminal prosecutor; or (2) a state, 
local, or federal public defender in a criminal case.
    The inherent difficulties associated with retaining qualified 
public attorneys is not new. And, there are multiple reasons why an 
attorney might choose the private sector over the public sector. The 
most frequently discussed reason centers around the need for higher 
paying jobs in the private sector to pay off any lingering student loan 
debt.
    The National Association for Law Placement (NALP) reports that the 
median salary for a fifth year associate in private practice is $122, 
500. In contrast, according to the NALP, the median salary for a fifth 
year state prosecuting attorney is merely $55,177; while a fifth year 
public defender makes even less at $54,672; and a fifth year local 
prosecuting yet and still makes even less at just $54,500. With 
significant pay disparities such as this, it's easy to understand how 
public sector attorneys are easily lured away with the hope of 
obtaining a larger salary that can often be found in the private 
sector.
    The final measure that we are considering today, H.R. 933, the 
``Witness Security and Protection Act of 2007,'' seeks to amend title 
28 of the United States Code to establish within the U.S. Marshals 
Service a short term witness protection program for witnesses that are 
involved in a state or local trial involving a homicide, serious 
violent felony, or serious drug offense. To ensure the best possible 
use of limited federal resources, the legislation also directs the U.S. 
Marshals Service to give priority to those prosecutor's offices that 
are located in a state with an average of at least 100 murders per year 
during the five year period immediately preceding and application for 
protection.
    Witness intimidation reduces the likelihood that citizens will 
engage in the criminal justice system, which could deprive police and 
prosecutors of critical evidence. Moreover, it can also have the 
unwanted effect of reducing public confidence in the criminal justice 
system, and can create the perception that the criminal justice system 
can not adequately protect its citizens.
    I looking forward to hearing the testimony of our witnesses on 
these latter points, as well as their thoughts on the previous issues 
mentioned with regard to the prior two bills.
    With that said, it is now my pleasure to recognize the esteemed 
Ranking Member of the Subcommittee, my friend and colleague, the 
Honorable, Randy J. Forbes, who represents Virginia's 4th Congressional 
District.
    Without objection, all Members may include opening statements in 
the record at this point.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Prepared Statement of Gavin Newsom, Mayor, San Francisco, CA
    Chairman Scott, I want to commend the Subcommittee for holding this 
hearing today to focus on the recent increase in incidents of violent 
crime and the need to determine how best, on the Federal level, to help 
state and local law enforcement officials combat the rise in violent 
crime. One critical legislative solution is bringing the COPS program 
back as en effective tool to combat violent crime. I am very encouraged 
by the introduction of H.R. 1700, the COPS Improvement Act of 2007, and 
urge the Subcommittee to take immediate action on this important 
measure.
    The US Conference of Mayors reports that 2005 showed the largest 
single year percent increase in violent crime in 15 years. This trend 
continued in 2006 according to a Police Executive Research Forum 
survey. A number of factors contribute to this increase in crime, 
including a growing culture of violence among youth, gangs, a 
proliferation of illegal guns, drug activity, and social problems 
related to school truancy and lack of jobs.
    COPS provides grants to tribal, state, and local law enforcement 
agencies to hire and train community policing professionals, acquire 
and deploy cutting-edge crime-fighting technologies, and develop and 
test innovative policing strategies. COPS has invested $11.3 billion to 
add community policing officers to the nation's streets and schools, 
enhance crime fighting technology, support crime prevention 
initiatives, and provide training and technical assistance to advance 
community policing. Since its creation in 1994, COPS has funded over 
118,000 community policing officers and deputies nationwide. Since 
1995, COPS has funded 267 police officers in San Francisco.
    As mayor I work hard every day to keep our community safe and have 
been frustrated that the current Administration has slashed federal 
funding for major Department of Justice law enforcement programs in 
recent years. Of special concern is the COPS program, which was once 
funded at almost $1.5 billion, and has now been eliminated in the 
President's current budget.
    Along with crime prevention, job training, and youth programs, our 
cities need more police officers to walk the beat and keep our 
residents safe. At a time when homeland security dominates federal 
spending priorities, I urge Congress to re-prioritize the need for 
hometown security and restore full funding to and enhance the COPS 
program.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Prepared Statement of Martin S. Pinales, President, National 
            Association of Criminal Defense Lawyers (NACDL)
    Yesterday brought news of a significant milestone in the criminal 
justice system: the 200th person exonerated through DNA evidence since 
1989. According to the Innocence Project, these 200 exonerees served 
2,475 years in prison for crimes they did not commit. While the 
importance of DNA analysis for purposes of exonerating the innocent and 
identifying the actual perpetrators cannot be denied, its usefulness as 
a forensic tool is limited to a small percentage of cases and crimes. 
As this Committee has recognized, ``DNA alone will not eliminate 
wrongful convictions. . . . [B]iological evidence that can establish 
guilt or innocence is available in fewer than 20 percent of violent 
crimes.'' House Rpt. 108-711.
    Nonetheless, studying these wrongful convictions and their causes 
has helped to elucidate the problems in the criminal justice system 
that can lead to errors. By taking advantage of this learning moment, 
we can institute reforms that prevent future errors, thus enhancing 
public safety.
    Law student debt helps explain one piece of a serious problem in 
our criminal justice system: the often-inadequate representation of 
people who are accused of a crime but cannot afford an attorney. Most 
public defenders are burdened with huge caseloads and a lack of basic 
resources. Couple these systemic problems with constant staff turnover 
caused by low salaries and high educational debt, and even the most 
dedicated public defender organizations will find it hard to provide 
quality representation. Such inequities guarantee that injustice will 
be done and innocent persons will be wrongly convicted, leaving the 
actual perpetrators at large.
    The John R. Justice Prosecutors and Defenders Incentive Act (H.R. 
916) represents a bipartisan effort to address this problem by 
providing education debt relief to lawyers who serve as public 
defenders and prosecutors for at least three years. The Act will help 
solve the problem of errors by making it easier for prosecutor's 
offices and public defender organizations to recruit and retain the 
best and brightest attorneys.
    With today's young lawyers often carrying $100,000 or more in 
education debt upon graduation from law school, many simply cannot 
afford to enter and continue employment as public defenders.
    Consider the following figures:

        Public defender salary (average):
                                                      $43,000 
        Monthly take-home pay (after tax):
                                                       $2,606 
        Cumulative education debt (private, average):
                                                      $78,763 
        Monthly loan payments:
                                                        $906 \1\
---------------------------------------------------------------------------
    \1\ Assuming a 10-year repayment term and an interest rate of 6.8%.
---------------------------------------------------------------------------
        Amount left for living expenses:
                                                       $1,700 

    It is easy to see that housing, food, transportation and other 
basic necessities will swallow up the remaining take-home pay--making 
home ownership, parenthood, and retirement saving beyond the reach of 
the average public defender. As a result, lawyers carrying even the 
average education debt load are effectively priced out of public 
service, and prosecutors' and public defenders' offices have serious 
difficulty attracting the best-qualified candidates and retaining 
experienced attorneys. Indeed, many offices have vacancies that they 
cannot fill.
    Student loan debt is consistently cited as the overwhelming reason 
why attorneys decline or leave positions as prosecutors and public 
defenders. According to a survey conducted by the National Association 
for Law Placement, law school debt prevented two-thirds of law student 
respondents from considering a public service career. The barrier 
disproportionately affects minority attorneys, who often enter law 
school with fewer resources and leave with greater debt.
    The low salary makes it incredibly difficult for offices to retain 
attorneys. Even attorneys willing to make the sacrifices necessary to 
enter public service cannot continue to do so forever. As a result, 
many attorneys leave these offices after only a few years. Recruiting 
experienced attorneys to take their places is almost impossible because 
of the salary. As a result, the justice system is left operating with a 
dearth of experienced attorneys, and less experienced, less qualified 
attorneys are forced to handle complicated cases, with the accused and 
the community suffering the consequences.
    Frequent staff turnover also creates inefficiency in the justice 
system. Cases are frequently delayed because of turnover, and offices 
must constantly expend precious resources recruiting and training new 
staff. For this reason, the Department of Justice Office of Justice 
Programs has concluded that loan forgiveness is ``an important means of 
reducing staff turnover and avoiding related recruitment/training costs 
and disruptions to the office and case processing.'' Improving Criminal 
Justice System through Expanded Strategies and Innovative 
Collaborations: Report of the National Symposium on Indigent Defense, 
NCJ 181344, February 1999.
    ``Nowhere in public service is it more important to encourage the 
recruitment of competent lawyers and the retention of experienced ones 
than in the disciplines of prosecution and public defense, where 
people's lives and liberty hang in the balance.'' Senate Rpt. 107-315. 
A reliable, fair, and efficient justice system requires competent 
attorneys representing the interests of government, protecting the 
rights of individuals, and ensuring that mistakes are not made. Skilled 
lawyers in the courtroom are the best safeguard against wrongful 
convictions of innocent people, an unconscionable miscarriage of 
justice in a system that is held out as a model for the world.
    Competent, experienced defense lawyers and prosecutors are 
essential to America's time-honored adversarial system of justice. A 
revolving-door system, where new lawyers leave just as they begin to 
hit their stride, wastes tax dollars and denies us the talents and 
dedication of those attracted to a lifetime of public service. The John 
R. Justice Prosecutors and Defenders Incentive Act would help ensure 
public safety and fundamental fairness, as well as increasing 
efficiencies, by making it possible for the most qualified lawyers to 
choose and continue these noble and essential legal careers.
                               __________
    NACDL is the preeminent organization in the United States advancing 
the mission of the nation's criminal defense lawyers to ensure justice 
and due process for persons accused of crime or other misconduct. A 
professional bar association founded in 1958, NACDL's 12,500 direct 
members--and 80 state, local and international affiliate organizations 
with another 35,000 members--include private criminal defense lawyers, 
public defenders, active-duty U.S. military defense counsel, law 
professors and judges committed to preserving fairness within America's 
criminal justice system.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
